<html>
<title> - OVERSIGHT HEARING ON A SEA OF. PROBLEMS: IMPACTS OF PLASTIC POLLUTION ON OCEANS AND WILDLIFE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      A SEA OF PROBLEMS: IMPACTS
              OF PLASTIC POLLUTION ON OCEANS AND WILDLIFE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE
                               
              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, October 29, 2019

                               __________

                           Serial No. 116-27

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-565 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 ------                                

              SUBCOMMITTEE ON WATER, OCEANS, AND WILDLIFE

                        JARED HUFFMAN, CA, Chair
             TOM McCLINTOCK, CA, Ranking Republican Member

Grace F. Napolitano, CA              Doug Lamborn, CO
Jim Costa, CA                        Robert J. Wittman, VA
Gregorio Kilili Camacho Sablan,      Garret Graves, LA
    CNMI                             Jody B. Hice, GA
Jefferson Van Drew, NJ               Aumua Amata Coleman Radewagen, AS
Nydia M. Velazquez, NY               Daniel Webster, FL
Anthony G. Brown, MD                 Mike Johnson, LA
Ed Case, HI                          Jenniffer Gonzalez-Colon, PR
Alan S. Lowenthal, CA                Russ Fulcher, ID
TJ Cox, CA                           Rob Bishop, UT, ex officio
Joe Neguse, CO
Mike Levin, CA
Joe Cunningham, SC
Raul M. Grijalva, AZ, ex officio

                                 ------                                
                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, October 29, 2019........................     1

Statement of Members:
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Danson, Ted, Actor, Advocate, and Board Member, Oceana, Los 
      Angeles, California........................................     7
        Prepared statement of....................................     8
        Questions submitted for the record.......................    12
    Jambeck, Jenna, Professor of Environmental Engineering, 
      University of Georgia, Athens, Georgia.....................    17
        Prepared statement of....................................    19
        Questions submitted for the record.......................    34
    Parras, Juan, Founder, Executive Director, Texas 
      Environmental Justice Advocacy Services (TEJAS), Houston, 
      Texas......................................................    12
        Prepared statement of....................................    14
        Questions submitted for the record.......................    16
    Radoszewski, Tony, President and CEO, Plastics Industry 
      Association (PLASTICS), Washington, DC.....................    39
        Prepared statement of....................................    40
        Questions submitted for the record.......................    46

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    74

    Submissions for the Record by Representative Lowenthal

        Ball Corporation, Written Testimony from Kathleen Pitre, 
          Chief Sustainability Office, dated November 12, 2019...    60

        Department of Energy and Environment, Letter from Tommy 
          Wells, Director, dated November 13, 2019...............    63

        Nature Climate Change, Letters, Vol. 9, May 2019, 
          ``Strategies to reduce the global carbon footprint of 
          plastics,'' by Jiajia Zheng and Sangwon Suh............    69
                                     


 
                     OVERSIGHT HEARING ON A SEA OF.
     PROBLEMS: IMPACTS OF PLASTIC POLLUTION ON OCEANS AND WILDLIFE

                              ----------                              


                       Tuesday, October 29, 2019

                     U.S. House of Representatives

              Subcommittee on Water, Oceans, and Wildlife

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:27 p.m., in 
room 1324, Longworth House Office Building, Hon. Alan S. 
Lowenthal [Member of the Subcommittee] presiding.
    Present: Representatives Lowenthal, Sablan, Van Drew, Case, 
Cox, Neguse, Cunningham; McClintock, Lamborn, and Graves.
    Also present: Representative Haaland.
    Dr. Lowenthal. The Subcommittee on Water, Oceans and 
Wildlife will come to order.
    I may look like Congressman Huffman, but I am not.
    [Laughter.]
    Dr. Lowenthal. I know it is a shock. I am Congressman 
Lowenthal. Congressman Huffman is back in Sonoma, dealing with 
the wildfires that are there, and never was able to get back 
here to Washington. We are all hoping that the fires subside, 
that many people are safe, and that Mr. Huffman returns soon.
    With that, the Subcommittee on Water, Oceans, and Wildlife 
will come to order.
    The Subcommittee is meeting today to hear testimony on ``A 
Sea of Problems: the Impacts of Plastic Pollution on Oceans and 
Wildlife.''
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, the Ranking Minority 
Member, the Vice Chair, and the Vice Ranking Member. This will 
allow us to hear from our witnesses sooner, and help Members 
keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5 p.m. today, or the 
close of the hearing, whichever comes first.
    Hearing no objections, so ordered.

 STATEMENT OF THE HON. S. ALAN LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Dr. Lowenthal. I am going to open up now, and I want to 
welcome all the witnesses. We are here today to discuss a 
pressing environmental issue, and that is plastic pollution.
    Certainly, single-use plastics have made life easier, but 
these materials come at a much higher cost than many would like 
to admit. Plastics last for centuries in the natural 
environment, and are found nearly everywhere on our planet.
    Last year, I witnessed the impact of plastic pollution on 
wildlife in Antarctica, one of the few places on earth that has 
been relatively untouched by human activity, but certainly not 
untouched by the scourge of plastics.
    Personally, I have been involved in trying to tackle the 
growing plastic crisis for over 20 years, working with my 
constituent and friend, Captain Charles Moore, who created the 
scientific research organization Algalita, and who did some of 
the early research on the plastic garbage gyre.
    There is an estimated 8 million metric tons of plastic that 
enter the oceans each year at a rate of about one garbage truck 
per minute, threatening biodiversity and accumulating in the 
seafood that we eat and in the water that we drink. Plastics 
have even been found in water samples right here in the Capitol 
Visitors Center.
    Plastics are also making climate change worse. The global 
life cycle emissions from one year's plastic production 
throughout the United States are about the same as 462 coal-
fired power plants per year, and that number is rising.
    Plastic production is an environmental justice issue, also. 
Petrochemical factories and incineration facilities are often 
located in low-income communities, where local health impacts 
and air quality impacts are quite significant, but frequently 
are ignored.
    Finally, in this Subcommittee, we need to look at solutions 
to deal with, for example, ghost fishing gear, fishing gear 
that has been lost at sea but continues to catch fish, marine 
mammals, turtles, birds, and corals.
    It is clear that we need to reduce plastic pollution. 
Higher recycling commitments, and bans and taxes on single-use 
plastic items can be part of the solution, but we must expand 
our tools to address this growing environmental and public 
health problem.
    In this Committee, we switched to reusable pitchers and 
glasses for water, rather than the disposable plastic water 
bottles we see so often around the Capitol. But not every 
switch is as easy, and not everyone has the option.
    The financial burden of cleaning up pollution should not be 
solely on the taxpayers. It is imperative that the companies 
that manufacture and sell these products take ownership of 
their environmental impacts. Congress needs to step up, too.
    It is for this reason that I have been working on 
comprehensive legislation with Senator Udall. Our legislation 
seeks to create a more circular approach by putting in place an 
extended producer responsibility program, implementing 
recycling content standards, as well as phasing out certain 
single-use-only items that have more sustainable alternatives.
    I am excited to announce that we should have a discussion 
draft of this legislation quite soon, which we will disseminate 
publicly, and I encourage all of you to let me know your 
thoughts and comments after its release.
    Some Federal agencies are also doing their part. NOAA's 
Marine Debris Program recently funded 14 new projects 
addressing aspects of this problem. However, the $2.7 million 
provided to these projects doesn't even come close to 
addressing the scale of the ocean plastic problem.
    The bottom line is this: We need to do more, we need to 
look at a broader range of solutions that are going to prevent 
wildlife from being strangled, and to keep microplastics from 
ending up on our plate.
    With that, I look forward to hearing more from our 
witnesses about their ideas.

    [The prepared statement of Dr. Lowenthal follows:]
 Prepared Statement of the Hon. Alan S. Lowenthal, a Representative in 
                 Congress from the State of California
    Today we're here to discuss a pressing environmental issue: plastic 
pollution.

    Certainly, single-use plastics have made life easier. But these 
materials come at a much higher cost than many would like to admit. 
Plastics last for centuries in the natural environment and are found 
nearly everywhere on our planet. Last year I witnessed the impacts of 
plastic pollution on wildlife in Antarctica, one of the few places on 
earth that has been relatively untouched by human activity.
    Personally, I have been involved in trying to tackle the growing 
plastic crisis for over 20 years, working with my constituent and 
friend, Captain Charles Moore, who created the scientific research 
organization Algalita and who did the early research on the pacific 
garbage gyre.
    An estimated 8 million metric tons of plastic enter the oceans each 
year at a rate of about one garbage truck per minute, threatening 
biodiversity and accumulating in the seafood that we eat and in the 
water that we drink. Plastic has even been found in water samples from 
the Capitol Visitors Center!
    Plastics are also making climate change worse. The global life 
cycle emissions from one year's plastic production are about the same 
as 462 coal-fired power plants per year--and that number is rising.
    Plastic production is an environmental justice issue too. 
Petrochemical factories and incineration facilities are often located 
in low-income communities, where local health impacts and air quality 
impacts are significant but often ignored.
    Finally, in this Subcommittee, we need to look at solutions to deal 
with ghost fishing gear--fishing gear that's been lost at sea but 
continues to catch fish, marine mammals, turtles, birds, and corals.
    It's clear that we need to reduce plastic pollution. Higher 
recycling commitments and bans and taxes on single-use plastic items 
can be part of the solution, but we must expand our tools to address 
this growing environmental and public health problem.
    In this Committee, we switched to reusable pitchers and glasses for 
water, rather than the disposable plastic water bottles we see so often 
around the Capitol. But not every switch is as easy, and not everyone 
has the option.
    The financial burden of cleaning up pollution should not just be on 
the taxpayers. It's imperative that the companies that manufacture and 
sell these products take ownership of their environmental impacts. 
Congress needs to step up, too.
    It is for this reason that I have been working on comprehensive 
legislation with Senator Udall. Our legislation seeks to create a more 
circular approach by putting in place an extended producer 
responsibility program, implementing recycling content standards, as 
well as phasing out certain single-use only items that have more 
sustainable alternatives available.
    I am excited to announce that we should have a discussion draft of 
the legislation very soon, which we will disseminate publicly, and I 
encourage all of you to let me know your thoughts and comments after it 
is released.
    Some Federal agencies are also doing their part--NOAA's Marine 
Debris Program recently funded 14 new projects addressing aspects of 
this problem. However, the $2.7 million provided to these projects 
doesn't even come close to addressing the scale of the ocean plastic 
problem.
    The bottom line is this: we need to do more and we need to look at 
a broader range of solutions to prevent wildlife from being strangled 
and to keep microplastics from ending up on our plate.
    With that, I look forward to hearing more from our witnesses about 
their ideas, and I will now invite the Ranking Member to share his 
remarks.

                                 ______
                                 

    Dr. Lowenthal. I will now invite the Ranking Member to 
share his remarks.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. Thank you, Mr. Chairman. The Subcommittee 
meets today to hear testimony on plastics and their impact on 
our oceans.
    From the tenor of the written testimony, it appears the 
Majority is blaming American consumers for the plastic waste 
that reaches our oceans, and is proposing to place restrictions 
on them that will dramatically reduce the convenience and 
higher quality of life that plastics have contributed to our 
modern society, while increasing costs dramatically.
    Blaming America first seems to be a recurring theme, but 
the facts paint a very different picture. A 2017 study 
published in the Environmental Science & Technology magazine 
found that between 88-95 percent of all the plastic debris that 
enters our oceans comes from 10 rivers, none of which is 
anywhere close to the United States--8 of those rivers are in 
Asia, and 2 are in Africa.
    According to a 2015 study, the top 20 marine plastic 
polluters produced as much as 10.76 million metric tons of 
waterborne plastic debris. The United States generated just 
0.11 million metric tons, barely 1 percent. Indeed, the entire 
United States contributed less waterborne plastic pollution 
than North Korea.
    So, who does the Majority blame for this? American 
consumers. But, as Jeane Kirkpatrick once observed, they always 
blame America first.
    According to the EPA, Americans have increased plastic 
recycling from 20,000 tons in 1980 to 3.1 million tons in 2015. 
That is a 155-fold increase. American consumers go to great 
lengths to responsibly dispose of plastic waste, and the 
numbers show that. American consumers are heroes, not villains, 
in this fight against plastic pollution of our oceans. We 
should be celebrating them, not punishing them.
    Yet, that is just what draconian restrictions on plastic 
use would do, starting with the 1.7 million families who depend 
on plastics manufacturing to put food on the table, roofs over 
their heads, and taxes into our government coffers. The single 
largest state employing them remains my home state of 
California, where 80,000 Californians are directly employed in 
the plastics industry.
    The misplaced object of the left's ire appears to be 
single-use plastic containers, the toothpaste tube, the shampoo 
bottle, the plastic bag. They criticize them as wasteful, since 
the plastic is used once and discarded, and yet takes between 
50 and 1,000 years to decay. Well, if they are properly 
disposed of--and Americans do--I have to ask, what exactly is 
that problem?
    The most common single-use packaging of the ancient world, 
once we had progressed from animal skins and gourds, was the 
amphora, usually a ceramic. A massive hill called Mount 
Testaccio in Rome is composed of discarded amphora, which have 
not degraded in nearly 2,000 years. Yet, the world is not worse 
for it, and the Romans were infinitely better off for it. Which 
begs the question: If we are going to ban single-use plastic 
containers, exactly what will replace them?
    How about your toothpaste? Before plastics, toothpaste came 
in collapsible metal tubes. Do the opponents of plastics find 
this a more environmentally-friendly container? The toothpaste 
tube was invented to protect consumers from the unhygienic 
practice of getting toothpaste in glass jars and dipping your 
toothbrush into them. Shall we return to glass jars? Before 
that, toothpaste came in powdered form in cardboard boxes and 
wax paper, which required mixing a batch every time you wanted 
to brush your teeth.
    Plastics have largely replaced aluminum as the best 
container to protect food against food spoilage. Before 
aluminum, it was tin. It takes 4 pounds of bauxite, usually by 
strip mining, and 7\1/2\ kilowatts of electricity to make 1 
pound of aluminum. Do the plastic critics really think an 
environmentally-friendly alternative is to return to the era of 
metal containers?
    Before metal containers, glass was commonly used. Glass 
takes roughly 1 million years to decompose, 1,000 times longer 
than the longest estimate for plastic decomposition. I suppose 
we could go back to cardboard and paper, but I remember the 
campaign a decade ago to ban paper bags as wasteful and 
environmentally offensive, so we dutifully replaced them with 
plastic bags, which have now attracted the ire of the 
environmental left.
    Single-use plastics, properly disposed of, mean greater 
convenience and lower prices for American consumers, and a much 
smaller environmental footprint than all of the different 
packaging materials that they have replaced.
    So, I am very interested in hearing today why Americans, 
who have an exemplary record of responsible plastic disposal 
and recycling, are to blame for the excesses of other people in 
other countries, and why those same Americans should now be 
punished with higher prices, less convenience, and a lower 
standard of living.
    And, finally, I would like to know what are the plastics 
critics proposing as an alternative to plastic containers that 
they haven't already rejected over the years.
    I yield back.

    [The prepared statement of Mr. McClintock follows:]
    Prepared Statement of the Hon. Tom McClintock, Ranking Member, 
              Subcommittee on Water, Oceans, and Wildlife
    The Subcommittee meets today to hear testimony on plastics and 
their impact on our oceans. From the tenor of the written testimony, it 
appears that the Majority is blaming American consumers for the plastic 
waste that reaches our oceans and is proposing to place restrictions on 
them that will dramatically reduce the convenience and higher quality 
of life that plastics have contributed to our modern society.
    Blaming America first seems to be a recurring theme, but the facts 
paint a very different picture. A 2017 study published in the 
Environmental Science & Technology magazine found that between 88-95 
percent of all the plastic debris that enters our oceans comes from 10 
rivers--none of which is anywhere close to the United States: 8 of 
those rivers are in Asia and the other 2 are in Africa.
    According to a 2015 study, the top 20 marine plastic polluters 
produced as much as 10.76 million metric tons of waterborne plastic 
debris. The United States generated just 0.11 million metric tons--or 
barely 1 percent. Indeed, the entire United States contributed less 
waterborne plastic pollution than North Korea.
    Who does the Majority blame for this? American consumers. But as 
Jeane Kirkpatrick once observed, they always blame America first.
    According to the EPA, Americans have increased plastic recycling 
from 20,000 tons in 1980 to 3.1 million tons in 2015. American 
consumers go to great lengths to responsibly dispose of plastic waste--
and the numbers show that. American consumers are heroes--not 
villains--in the fight against plastics pollution of our oceans. We 
should be celebrating them and not punishing them!
    Yet, that is just what Draconian restrictions on plastic use would 
do, starting with the 1.7 million families who depend on plastics 
manufacturing to put food on the table, roofs over their heads and 
taxes into our coffers. The single largest state employing them remains 
my home state of California, where 80,000 Californians are directly 
employed in the plastics industry.
    The misplaced object of the left's ire appears to be single-use 
plastic containers: the toothpaste tube, the shampoo bottle, the 
plastic bag. They criticize them as wasteful, since the plastic is used 
once and discarded and yet take between 50 and 1,000 years to decay.
    If they are properly disposed of--and Americans do that better than 
just about any other people on this planet--I have to ask, what exactly 
is the problem? The most common single-use packaging of the ancient 
world--once we had progressed from animal skins and gourds--was the 
amphora, usually a ceramic. A massive hill called Mt. Testaccio in Rome 
is composed of discarded amphorae, which have not degraded in nearly 
2,000 years. Yet the world isn't the worse for it--and the Romans were 
infinitely better off for it.
    Which begs the question, if we are going to ban single-use plastic 
containers, exactly what will replace them? How about your toothpaste? 
Before plastics, toothpaste came in collapsible metal tubes. Do the 
opponents of plastics find this a more environmentally friendly 
container? The toothpaste tube was invented to protect consumers from 
the unhygienic practice of getting toothpaste in glass jars and dipping 
your toothbrush into them. Shall we return to glass jars? Before that, 
toothpaste came in powder form in cardboard boxes and wax paper, which 
required mixing a batch every time you brushed your teeth.
    Plastics have largely replaced aluminum as the best container to 
protect against food spoilage. Before aluminum, it was tin. It takes 4 
pounds of bauxite usually by strip mining and 7\1/2\ kilowatts of 
electricity to make 1 pound of aluminum. Do the plastic critics really 
think an environmentally friendly alternative is to return to the era 
of metal containers? Before metal containers, glass was commonly used. 
Glass takes roughly 1 million years to decompose--1,000 times longer 
than the longest estimate for plastic decomposition. I suppose we could 
go back to cardboard and paper, but I remember the campaign a decade 
ago to ban paper bags as wasteful and environmentally offensive. So we 
dutifully replaced them with plastic bags, which have now attracted the 
ire of the environmental left.
    Single use plastics--properly disposed of--mean greater convenience 
and lower prices for American consumers, and a much smaller 
environmental footprint than all the different packaging materials that 
they replaced.
    So I'm very interested in hearing why Americans--with an exemplary 
record of responsible plastic disposal and recycling--are to blame for 
the excesses of other people in other countries; and why those same 
Americans should now be punished with higher prices, less convenience 
and a lower standard of living. And finally, I would like to know what 
the plastics critics are proposing as an alternative to plastic 
containers, that they haven't already rejected over the years.

                                 ______
                                 

    Dr. Lowenthal. I am going to ask unanimous consent that the 
gentleperson from New Mexico, Representative Haaland, be 
allowed to sit on the dais and participate in today's 
proceedings.
    Without objection, that is ordered.
    Now I am going to introduce our witnesses.
    Our first witness is Mr. Ted Danson. You may know him 
better as Michael on ``The Good Place,'' or Sam on ``Cheers.'' 
But Mr. Danson is also the Vice Chair of the Board of Directors 
at Oceana, where he has been closely involved since its 
inception.
    Our next witness will be Mr. Juan Parras, who is the 
Founder and Executive Director at the Texas Environmental 
Justice Advocacy Service, or TEJAS.
    Following him we will hear from Dr. Jenna Jambeck, 
Professor of Environmental Engineering at the University of 
Georgia, and the lead author of a groundbreaking study on 
plastic.
    And, finally, our last witness will be Tony Radoszewski, 
who is the President and CEO of the Plastics Industry 
Association.
    Let me remind all the witnesses that, under our Committee 
Rules, they must limit their oral statements to 5 minutes, but 
that their entire statement will appear in the hearing record.
    When you begin, the lights on the witness table will turn 
green. After 4 minutes, the yellow light will come on. Your 
time will have expired when the red light comes on, and I will 
ask you to please complete your statement.
    I will also allow the entire panel to testify before 
questioning witnesses.
    The Chair now recognizes Mr. Danson to testify.
    Welcome to our Committee.

  STATEMENT OF TED DANSON, ACTOR, ADVOCATE, AND BOARD MEMBER, 
                OCEANA, LOS ANGELES, CALIFORNIA

    Mr. Danson. I would like to thank the Chair and Ranking 
Member, and members of the Committee for the opportunity to 
testify on plastic pollution.
    I am the Vice Chair of Oceana's Board of Directors. Oceana 
is the largest international advocacy organization dedicated 
solely to ocean conservation. I have been working on ocean 
issues for more than 30 years. In the late 1980s, I co-founded 
the American Oceans Campaign, which then joined with Oceana in 
2002. I am here to testify today about the growing problem of 
plastic pollution that is threatening our oceans.
    Almost from the moment we wake up, to the time we go to 
bed, we are faced with throwaway plastic. We face it when we 
brush our teeth with a toothbrush made of plastic, and squeeze 
toothpaste out of a plastic tube, and when we wash our hair 
with shampoo and conditioner from plastic bottles. The rest of 
our daily routines might include one or several coffees in cups 
with plastic lids, lunch in plastic take-out containers with 
plastic utensils, and grocery shopping, where single-use 
plastic is unavoidable. There isn't a place on earth untouched 
by the pollution from all this plastic.
    The list of marine animals affected by plastic pollution 
grows. Plastic has been consumed by an estimated 90 percent of 
seabird species, and eaten by every species of sea turtle. Even 
our corals are threatened.
    In addition to polluting the marine environment, plastic 
poses a risk to human health. We are now seeing plastic in our 
water, our food, soil, air, and bodies. Plastic particles have 
been found in everything from honey and beer to salt and tea.
    Plastic is also affecting our climate. If plastic was a 
country, it would be the planet's fifth largest emitter of 
greenhouse gases. With plastic production rates anticipated to 
increase, so will plastic's effects on the climate and oceans.
    The most important thing to remember about plastic is that 
it lasts for centuries. This is what makes single-use plastics 
so profoundly flawed. They are created from a material made to 
last forever, but are designed to be used once and thrown away.
    Simply improving recycling rates will not solve the plastic 
crisis. Of all the plastic waste ever generated, only 9 percent 
has been recycled. That means the vast majority was sent to a 
landfill, incinerated, or ended up polluting our natural 
environment, including our oceans. Recycling is like trying to 
mop up water from an overflowing bathtub, while the faucet is 
still running. We need to turn off the faucet and reduce the 
production of plastic.
    Companies need to significantly reduce the amount of 
single-use plastic they are putting onto the market, and offer 
consumers plastic-free choices for their products. 
Unfortunately, companies aren't doing enough, and that is why 
we need your help.
    Policies governing the production and use of single-use 
plastic are effective, and these policies are becoming more 
common around the world and across this country. The European 
Union, Peru, Chile, and Canada have all announced or are 
implementing policies to reduce plastic pollution. U.S. cities, 
counties, and states have taken the initiative, passing 
policies to reduce single-use plastics. But ultimately, 
comprehensive U.S. Federal action is needed.
    This Committee should use its authority to tackle the 
problem. I applaud you for stopping the use of plastic water 
bottles in Committee hearings.
    The National Park Service had a policy to encourage 
national parks to stop selling water in plastic bottles. 
Unfortunately, the policy has been reversed. The Committee 
should make our national parks, wildlife refuges, marine 
sanctuaries, and other Federal lands and waters into single-use 
plastic-free zones.
    I urge Congress to pass Federal legislation that stops 
plastic pollution at the source, that significantly reduces the 
production of this everlasting pollutant, that holds 
corporations responsible for this global crisis, and enables 
states and cities to continue to lead the way on solutions.
    Don't fall for the false promise of recycling. And please 
don't stoop to incineration. We must stop the runaway increase 
in plastic production and reduce the amount of plastic that 
companies are making and foisting on us, because it will last 
for centuries. We have no more time to waste. Thank you.

    [The prepared statement of Mr. Danson follows:]
     Prepared Statement of Ted Danson, Vice Chair, Oceana Board of 
                   Directors, Los Angeles, California
    Good afternoon. Thank you, Chairman Huffman, Ranking Member 
McClintock and members of the Committee, for the opportunity to testify 
today on plastic pollution's effects on our oceans. My name is Ted 
Danson, and I am the Vice Chair of Oceana's board of directors. Oceana 
is the largest international advocacy organization dedicated solely to 
ocean conservation. We work in North, South and Central America, Asia 
and Europe to advocate for science-based policies that will restore the 
ocean's abundance and biodiversity.
    I've been working on ocean issues for more than 30 years. My 
interest in the oceans started when one day, I decided to take my 
daughters--who were 4 and 8 years old at the time--to go swimming at 
the beach in Southern California. We were ready to go and running 
toward the water, but were stopped by a sign that said, ``no swimming, 
ocean polluted.''
    My girls couldn't believe it, and neither could I. The ocean was 
closed. They asked me, ``Why, why can't we go swimming--in this 
beautiful ocean?'' So, in the late 1980s, I co-founded the American 
Oceans Campaign to clean up beaches and the ocean. And for 15 years, we 
worked to protect the oceans from oil drilling and other threats.
    To expand the capacity of the American Oceans Campaign, we decided 
to join with Oceana in 2002. Oceana has protected more than 4.5 million 
square miles of ocean and won over 200 victories to stop overfishing, 
habitat destruction, pollution and the killing of threatened species. I 
am here today to testify about the growing problem of plastic pollution 
that is threatening our oceans.
    Almost from the moment we wake up to the time we go to bed, we are 
faced with throwaway plastic. We face it when we brush our teeth with a 
toothbrush made of plastic and squeeze toothpaste out of a plastic 
tube, and when we wash our hair with shampoo and conditioner from 
plastic bottles. The rest of our daily routines might include one or 
several coffees in cups with plastic lids, lunch in plastic take-out 
containers with plastic utensils, and grocery shopping, where single-
use plastic is unavoidable.
    If you tried to avoid the plastic typically encounter in a day, 
you'd hit countless obstacles. There was an article in The New York 
Times earlier this year about people who managed to maintain generally 
plastic-free lifestyles--their days involved using homemade shampoo, 
toothpaste and more. This effort is extraordinarily admirable, but not 
many could manage it.\1\ Millions of consumers should not have to 
restructure their daily routines to avoid plastic when the country's 
leading producers of food, personal care products and other everyday 
staples could start using sustainable alternatives to single-use 
plastic, stopping the problem at the source.
---------------------------------------------------------------------------
    \1\ Kurutz, S. (2019). Life Without Plastic Is Possible. It's Just 
Very Hard. The New York Times. Available: https://www.nytimes.com/2019/
02/16/style/plastic-free-living.html. Accessed Oct 23, 2019.
---------------------------------------------------------------------------
    Plastic hasn't been around for as long as you might imagine, 
considering the level of plastic pollution we're seeing in the 
environment. It wasn't being used for consumer goods like beverage 
bottles until the 1940s. By the 1950s, we had entered the era of 
``throwaway living''--meaning our current culture of relying on single-
use, disposable materials to make our lives more efficient and 
convenient. Plastic was convenient for producers too--it was a cheap, 
durable and lightweight material. This trend's environmental impact was 
evident within just a few years. Disposable items were suddenly 
cluttering roadsides around the country.
    Fast forward to today, and we're seeing plastic floating on the 
surface of the sea, washing up on the world's most remote coastlines, 
melting out of Arctic sea ice and sitting at the deepest point of the 
ocean floor.\2\ There isn't a place on earth untouched by plastic 
pollution. In fact, it's now cemented in our fossil record. For the 
first time, researchers have documented plastic building up 
exponentially in the sediments off the coast of Santa Barbara, 
California, that precisely mirrors the massive expansion in global 
plastic production from 1945 to the present decade.\3\
---------------------------------------------------------------------------
    \2\ Lavers JL and Bond JL. (2017). Exceptional and rapid 
accumulation of anthropogenic debris on one of the world's most remote 
and pristine islands. PNAS 114:6052-6055. doi: 10.1073/pnas.1619818114; 
Peeken I, Primpke S, Beyer B, et al. (2018). Arctic sea ice is an 
important temporal sink and means of transport for microplastic. Nature 
Communications 9. doi: 10.1038/s41467018-03825-5; Chiba S, Saito H, 
Fletcher R, et al. (2018). Human footprint in the abyss: 30 year 
records of deep-sea plastic debris. Marine Policy 96:204-212. doi: 
10.1016/j.marpol. 2018.03.022.
    \3\ Brandon JA, Jones W, and Ohman MD. (2019). Multidecadal 
increase in plastic particles in coastal ocean sediments. Science 
Advances 5. doi: 10.1126/sciadv.aax0587.
---------------------------------------------------------------------------
    We are leaving behind a permanent legacy of plastic pollution for 
future generations.
    The list of marine animals affected by plastic pollution is 
continually growing. Plastic has been consumed by an estimated 90 
percent of seabird species and eaten by every species of sea turtle.\4\ 
Some organisms, such as corals, appear even more attracted to plastic 
than food.\5\ What's worse, studies have shown when corals come into 
direct contact with plastic debris, their likelihood of disease 
increases from 4 percent to a staggering 89 percent.\6\ At least 17 
percent of the species observed to be affected by marine debris are 
listed as threatened or near threatened with extinction by the 
International Union for the Conservation of Nature, indicating that 
marine plastic debris may be contributing to the possibility of these 
species' extinction.\7\
---------------------------------------------------------------------------
    \4\ Wilcox C, van Sebille E, and Hardesty BD. (2015). Threat of 
plastic pollution to seabirds is global, pervasive and increasing. PNAS 
112:11899-11904. doi: 10.1073/pnas.1502108112; Kuhn S, Bravo Rebolledo 
EL, and van Franeker JA. (2015). Deleterious Effects of Litter on 
Marine Life. In: Marine Anthropogenic Litter. Cham: Spinger 
International Publishing.
    \5\ Rotjan RD, Sharp KH, Gauthier AE, et al. (2019). Patterns, 
dynamics and consequences of microplastic ingestion by the temperate 
coral, Astrangia poculata. The Royal Society. doi: 10.1098/
rspb.2019.0726.
    \6\ Lamb JB, Willis BL, Fiorenza EA, et al. (2018). Plastic waste 
associated with disease on coral reefs. Science 26:460-462. doi: 
10.1126/science.aar3320.
    \7\ Gall SC and Thompson RC. (2015). The impact of debris on marine 
life. Marine Pollution Bulletin 92:170-179. doi: 10.1016/
j.marpolbul.2014.12.041.
---------------------------------------------------------------------------
    One study estimated that up to 51 trillion microplastic particles 
were present in the ocean in 2014. This number is only expected to 
increase as plastic continues to pour into our oceans and breaks up 
into smaller pieces.\8\
---------------------------------------------------------------------------
    \8\ van Sebille E, Wilcox C, Lebreton L, et al. (2015). A global 
inventory of small floating plastic debris. Environmental Research 
Letters.
---------------------------------------------------------------------------
    In addition to polluting the marine environment, plastic poses a 
risk to human health. We're now seeing plastic in our water, our food, 
our soil, our air and our bodies.\9\ Plastic particles have been found 
in everything from our water and beer to honey, salt and tea.\10\ The 
particles also make their way into the seafood we eat.\11\ Scientists 
are still studying the potential impacts the plastic particles 
themselves are having on our health.
---------------------------------------------------------------------------
    \9\ ---- (2019). Plastic and Health: The Hidden Costs of a Plastic 
Planet. Center for International Environmental Law. 84p.; Boots B, 
Russell CW, and Green DS. (2019). Effects of microplastic in soil 
ecosystems: above and below ground. Environmental Science & Technology. 
doi: 10.1021/acs.est.9b03304; Schwabl P, Koppel S, Konigshofer P, et 
al. (2019). Detection of various microplastics in human stool: a 
prospective case series. Annals of Internal Medicine. doi: 10.7326/M19-
0618; Dris R, Gasperi J, Mirande C, et al. (2017). A first overview of 
textile fibers, including microplastics, in indoor and outdoor 
environments. Environmental Pollution 221:453-458. doi: 10.1016/
j.envpol.2016.12.013.
    \10\ Kosuth M, Mason SA, and Wattenberg EV. (2018). Anthropogenic 
contamination of tap water, beer, and sea salt. PLoS ONE 13. doi: 
10.1371.journal.pone.0194970; Hernandez LM, Xu EG, Larsson HCE, et al. 
(2019). Plastic teabags release billions of microparticles and 
nanoplastics into tea. Environmental Science & Technology. doi: 
10.1021/acs.est.9b02540.
    \11\ Li J, Green C, Reynolds A, et al. (2018). Microplastics in 
mussels sampled from coastal waters and supermarkets in the United 
Kingdom. Environmental Pollution 241:35-44. doi: 10.1016/
j.envpol.2018.05.038; Rochman CM, Tahir A, Williams SL, et al. (2015). 
Anthropogenic debris in seafood: Plastic debris and fibers from 
textiles in fish and bivalves sold for human consumption. Scientific 
Reports 5 doi: 10.1038/srep14340.
---------------------------------------------------------------------------
    Plastic is also affecting our climate. If plastic was a country, it 
would be the planet's fifth-largest emitter of greenhouse gases.\12\ 
Studies have shown that plastic contributes to climate change by using 
fossil fuels and emitting greenhouse gases throughout its life cycle, 
from production and transportation to waste management. Plastic at the 
ocean's surface and on land continually releases methane and other 
greenhouse gases throughout its existence, and these emissions increase 
as plastic breaks apart in sunlight.\13\ With plastic production rates 
anticipated to increase, so will plastic's effects on our climate.
---------------------------------------------------------------------------
    \12\ Zheng J and Suh S. (2019). Strategies to reduce the global 
carbon footprint of plastics. Nature Climate Change 9:374-378. doi: 
10.1038/s41558-019-90459-z; ---- CO2 Emissions/Global Carbon Atlas. 
Available: http://www.globalcarbonatlas.org/en/CO2-emissions. Accessed 
Oct 9, 2019.
    \13\ ---- (2019). Plastic and Climate: The Hidden Costs of a 
Plastic Planet. Center for International Environmental Law.
---------------------------------------------------------------------------
    Perhaps the single most important thing to remember about plastic 
is that it lasts for centuries.\14\ Most of the plastic you've used in 
your lifetime still exists on the planet in some form or another. This 
is what makes single-use plastics so profoundly flawed. Single-use 
plastics are created from a material made to last forever but are 
designed to be used once and thrown away. Sometimes single-use plastics 
are only used for a few moments before polluting the earth for years to 
come.
---------------------------------------------------------------------------
    \14\ ---- (2018). A Guide to Plastic in the Ocean. NOAA's National 
Ocean Service. Available: https://oceanservice.noaa.gov/hazards/
marinedebris/plastics-in-the-ocean.html. Accessed June 6, 2019.
---------------------------------------------------------------------------
    Half of all the plastic ever made in our planet's history was 
produced in the past 15 years.\15\ Plastic production is expected to 
quadruple between 2014 and 2050, rising 40 percent in just the next 
decade.\16\ Waste-management options don't have a chance at keeping up. 
Take recycling, for instance. Now that companies are seeing their names 
on the bottles floating in the ocean and polluting our beaches, plastic 
producers frequently tout their commitments to improving recycling 
rates and their investments in waste-management systems. They proclaim 
recycling as the panacea to our plastic problem.
---------------------------------------------------------------------------
    \15\ Geyer R, Jambeck JR, and Law KL. (2017). Production, use, and 
fate of all plastics ever made. Science Advances 3. doi: 
10.1126.sciadv.1700782.
    \16\ UNEP and GRID-Arendal. (2016). Marine Litter Vital Graphics. 
Nairobi: United Nations Environment Programme and Arendal: GRID-
Arendal.; ---- (2019). Plastic and Climate: The Hidden Costs of a 
Plastic Planet. Center for International Environmental Law. 108p.
---------------------------------------------------------------------------
    But of all the plastic waste ever generated as of 2015, only 9 
percent has been recycled. That means the vast majority, 91 percent, 
either was sent to a landfill, was incinerated or ended up polluting 
our natural environment--including our oceans.\17\ Simply improving 
recycling rates will not solve this crisis.
---------------------------------------------------------------------------
    \17\ Geyer R, Jambeck JR, and Law KL. (2017). Production, use, and 
fate of all plastics ever made. Science Advances 3. doi: 
10.1126.sciadv.1700782.
---------------------------------------------------------------------------
    In fact, not everything that goes into the recycling bin actually 
gets recycled. Some is disposed of in landfills or lost in the 
recycling process. Some is turned into lower-value products, known as 
``downcycling.'' And some is exported to developing nations with less 
robust waste management systems. This means the plastic we thought was 
being recycled often ends up in a landfill or in the ocean on the other 
side of the globe.\18\ The United States is no exception. In 2015, 
plastic recycling rates in the United States were only 9 percent.\19\ 
The United States and other developed countries have been adding to the 
problem by shipping some of our plastic waste to countries in Asia 
because it's cheaper than dealing with it at home.\20\
---------------------------------------------------------------------------
    \18\ Brooks AL, Wang S, and Jambeck JR. (2018). The Chinese import 
ban and its impact on global plastic waste trade. Science Advances 4. 
doi: 10.1126/sciadv.aat0131.
    \19\ ---- (2018). Advancing Sustainable Materials Management: 2015 
Tables and Figures. Environmental Protection Agency.
    \20\ ---- (2019). Global Exports of Plastic Scrap by Country and 
Year (in metric tons). Institute of Scrap Recycling Industries, Inc. 
Available: https://www.isri.org/docs/default-source/commodities/
international-scrap-trade-database/plastic-ex-comtrade-2019---
28mar2019.pdf?sfvrsn =6. Accessed Sept 30, 2019.
---------------------------------------------------------------------------
    The truth is, recycling can't solve the ever-growing plastic 
crisis. Recycling is like trying to mop up water from an overflowing 
bathtub while the faucet is still running. We need to turn off the 
faucet and reduce the production of single-use plastic. Companies that 
have created this problem need to change the way they do business. They 
must do more than recycle. We need them to significantly reduce the 
amount of single-use plastic they are putting onto the market and offer 
consumers plastic-free choices for their products.
    Unfortunately, those companies aren't doing enough, and that's why 
we need your help. It's up to our national, state and local governments 
to require companies to reduce single-use plastic. Policies governing 
the production and use of single-use plastic are the most effective way 
to stem the flow of it into our oceans, and these policies are becoming 
more common around the world.\21\
---------------------------------------------------------------------------
    \21\ UNEP. (2018). Combating marine plastic litter and 
microplastics: An assessment of the effectiveness of relevant 
international, regional and subregional governance strategies and 
approaches--summary for policy makers. Available: https://
papersmart.unon.org/resolution/uploads/
unep_aheg_2018_1_inf_3_summary_policy_makers.pdf. Accessed Jul 31, 
2019.
---------------------------------------------------------------------------
    The European Union, Peru, Chile and Canada have all announced or 
are implementing policies to reduce plastic pollution. The United 
States should create a national policy that comprehensively addresses 
the plastics crisis threatening our future. U.S. cities, towns, 
counties and states have recognized the urgency of the issue and taken 
the initiative on their own, passing policies to reduce single-use 
plastics. Effective policies include bans, taxes, deposit return 
systems and extended producer responsibility.

    Here are a few examples:

    In 2018, the European Union announced a phaseout of single-use 
plastics by 2021. The Single-Use Plastics Directive bans single-use 
plastic products, including plates, cutlery, polystyrene food and 
beverage containers, and other items that are estimated to represent 85 
percent of single-use plastic found on beaches in the EU.\22\
---------------------------------------------------------------------------
    \22\ Directive 2019/904 of the European Parliament and of the 
Council of 5 June 2019 On the Reduction of the Impact of Certain 
Plastic Products on the Environment, 2019 O.J. (L 155) 1-19 (EU).
---------------------------------------------------------------------------
    Earlier this year, Santa Monica, California prohibited food and 
beverage sellers from offering disposable food ware, including plates, 
cups, bowls, trays and utensils, made predominantly with plastic. The 
city has already banned expanded polystyrene products.\23\
---------------------------------------------------------------------------
    \23\ Santa Monica, Cal., Mun. Code ch. 5.44 (2019).
---------------------------------------------------------------------------
    In 2019, Vermont passed a law that includes a ban on single-use 
plastic bags, a ban on expanded polystyrene food service products, a 
minimum 10-cent tax on recyclable paper bags, a ban on single-use 
plastic stirrers, and a policy making straws available by request-only 
in food service establishments.\24\
---------------------------------------------------------------------------
    \24\ Vt. Stat. Ann. tit. 10 Sec. Sec. 6691-6700 (effective July 1, 
2020).
---------------------------------------------------------------------------
    On the Federal level, this Committee should use its authority to 
tackle the plastic pollution problem. I applaud you for stopping the 
use of plastic water bottles in committee hearings and votes, the rest 
of Congress should take this same step. There's no need to wait. In 
2011, the National Park Service implemented a policy to encourage 
national parks to stop selling water in plastic bottles. Unfortunately, 
the policy has been reversed. The Committee should make our national 
parks, national wildlife refuges, marine sanctuaries and other Federal 
lands and waters into single-use-plastic free zones, stopping the sale 
of single-use plastics including plastic beverage bottles throughout 
the Department of the Interior system.
    Local and state policies move us in the right direction, and 
ultimately comprehensive U.S. Federal action is needed--and soon. I 
urge you, our policy makers tasked with protecting our country's 
natural resources, to pass Federal legislation that stops plastic 
pollution at the source, significantly reduces the production of this 
everlasting pollutant, holds corporations responsible for this global 
crisis and enables states and cities to continue to lead the way on 
solutions. Don't fall for the false promise of recycling and don't 
stoop to incineration, we must stop the runaway increase in plastic 
production and reduce the amount of plastic companies are making and 
foisting on us, because it will last for centuries. We have no more 
time to waste.

                                 ______
                                 

   Questions Submitted for the Record by Rep. Velazquez to Ted Danson
    Question 1. In my district, the Brooklyn Bridge Park Conservancy 
reported that over 75 percent of the waste discovered in their clean-up 
project was single-use plastics--particularly straws and plastic 
bottles. As you mentioned in your testimony, recycling alone will not 
address the worsening plastic crisis. We need timely action from both 
consumers and producers. Throughout your time working on this front, 
what corporations or industries have been the most unresponsive to 
advocates' request to start using sustainable alternatives to single-
use plastic?

    Answer. Solving the plastic pollution crisis will require efforts 
from all companies and industries producing unnecessary single-use 
plastic, but some industries have played a larger role in the problem 
than others. The 2018 International Coastal Cleanup found that the most 
commonly collected plastic items included plastic grocery bags, plastic 
straws, plastic stirrers, plastic lids, plastic take-out containers, 
foam take-out containers, plastic beverage bottles and plastic bottle 
caps. Plastic bottles were among the top three most common plastic 
items found in Break Free from Plastic's global cleanup this past 
September.
    The responsibility for curbing the amount of plastic beverage 
bottles and plastic bottle caps ending up in our waterways should fall 
on the companies producing these products, but unfortunately, we're not 
seeing significant progress. If you go to your average supermarket or 
lunch counter wanting a beverage or a salad, you'll often find your 
only choices have a plastic package. Four decades of the industry 
knowing about the plastic pollution problem hasn't changed that. 
Beverage companies continue to tout their recycling commitments as a 
solution to the problem rather than switching to more sustainable 
packaging. Some of these companies even make vague promises to reduce 
their use of virgin plastic that lack quantifiable goals, making it 
impossible for us to hold them accountable.
    Similarly, it is no surprise that plastic bags, straws, stirrers, 
lids and take-out containers are ending up in our oceans when they're 
so readily available at retailers and restaurants. These are single-use 
items that these companies could choose to avoid, but we haven't seen 
enough take the initiative to stop using these items or swap them out 
for less harmful alternatives. Policies like plastic bag, straw and 
polystyrene bans that have passed in cities, counties and states around 
the country are effective in driving widespread change around these 
items.
    Companies have the power to greatly reduce the amount of plastic 
flowing into our oceans by quitting their reliance on plastic packaging 
and giving consumers plastic-free choices. We need to demand that 
change now and implement policies that support it.

                                 ______
                                 

    Dr. Lowenthal. Thank you, Mr. Danson.
    The Chair now recognizes Mr. Parras to testify for 5 
minutes.
    Welcome to the Committee.

 STATEMENT OF JUAN PARRAS, FOUNDER, EXECUTIVE DIRECTOR, TEXAS 
ENVIRONMENTAL JUSTICE ADVOCACY SERVICES (TEJAS), HOUSTON, TEXAS

    Mr. Parras. I, too, thank you, Chairman Lowenthal and 
Ranking Member McClintock. I am Juan Parras with Texas 
Environmental Justice Advocacy Services (TEJAS). TEJAS has been 
working on environmental justice issues along the Houston Ship 
Channel for over 16 years. We work at the intersection of human 
rights and social justice issues.
    We call Houston home and share that home with the largest 
petrochemical complex in the Nation, the second-largest in the 
world. It is also the largest city with no zoning, meaning that 
refineries and petrochemical plants, storage tanks, and other 
industries and infrastructures can be built on the fence line 
of communities bordering them.
    Ninety-nine percent of plastic is derived from fossil 
fuels. Of those plastics produced, they are derived from either 
fracked gas or oil. The explosion of natural gas products has 
led to an ever-increasing demand for natural gas liquid, rich 
in the chemicals that serve as the building block of plastic 
production.
    Naphtha is a product of oil refining. It is another key 
element of plastic production. Only five companies account for 
over half of global naphtha sales: British BP, Chevron, 
ExxonMobil, Shell, and China National Petroleum Corporation. 
Four of the five have refining capacities along our coast 
within an hour of our front-door communities.
    We are already exposed to a dangerous mix of toxic 
pollutants, both authorized and unauthorized, released by many 
different industrial sources located along the Houston Ship 
Channel. Over the last several years, that petrochemical 
complex has been expanding. Post-Hurricane Harvey, we began 
tracking the emissions and realized that the expansions seen in 
our communities were related to a rapidly, ever-growing market 
in plastic. Ethane crackers, terminals, and logistics plants 
all centered around one thing, the production of plastics.
    We understood that these expansions were focused on 
ethylene crackers and LNG facilities. However, we now 
understand the major economic pivot oil and gas is undergoing, 
shifting from traditional production into new forms of 
petroleum utilization.
    However, as they expanded, so too did the instability of 
these petrochemical plants, and we have seen an increase of 
chemical disasters in the Houston Ship Channel. In the most 
recent fire, 37 people were injured, some with first-degree 
burns. Workers were initially evacuated, but later required to 
re-enter the plant as the fire was still burning.
    To compound the problems, the Commission's Baytown air 
quality monitors had malfunctioned during the event, and thus 
deprived community members of invaluable air quality data to 
protect their health.
    While those fires blazed, community members were wholly 
unaware of the fire or proper shelter-in-place. ExxonMobil has 
a 10-year investment of $20 billion in their expansion projects 
for the Gulf of Texas.
    Recent disasters: the ExxonMobil fire on March 16, 2019; 
the ITC Fire on March 17, 2019, where over 8 cities were held 
hostage under a chemical plume 47 miles long and 17 miles wide; 
the ExxonMobil Olefins fire on July 31, 2019, where 37 workers 
were injured; and on September 20, 2019, where nine chemical 
barges collided after Tropical Storm Imelda damaged evacuation 
routes.
    A recent report for the Center for International 
Environmental Law found that if trends in the oil consumption 
continue as expected, the consumption of oil by the entire 
plastic sector will account for 20 percent of the total 
consumption by 2050. A recent study uncovered two-thirds of the 
90 plastic-related facilities in the Houston region violated 
air pollution control laws over the last 5 years, and were 
subject to environmental enforcements. But many more exceeded 
their permits and were not penalized.
    State records show these compounding emissions result in 
cumulative impacts on neighboring communities, including an 
increased risk for developing cancer and other health 
conditions. Plastic poses a distinct risk to public health, 
from wellhead to waste. From our dinner table to the depths of 
our oceans, every part of the chain that creates plastic harms 
us.
    Plastic is being produced near vulnerable communities, 
predominantly people of color, poor people, indigenous, and 
immigrant people who have to pay the price in shortening the 
life span of our children and elderlies.
    And I see that I am out of time, but I will submit the 
entire document. Thank you.

    [The prepared statement of Mr. Parras follows:]
     Prepared Statement of Juan Parras, Executive Director, Texas 
          Environmental Justice Advocacy Services (t.e.j.a.s.)
    T.e.j.a.s has been working on environmental justice issues along 
the Houston Ship Channel for over 16 years. We work at the intersection 
of human rights and social justice issues. We call Houston home and 
share that home with the largest petrochemical complex in the Nation, 
second-largest in the world. It is also the largest city with no 
zoning. This means you can put parks, homes, and preschools next to 
petrochemical facilities, refineries, storage tanks and other industry 
infrastructure, in fact you can find living examples in our community 
of Manchester and throughout the Gulf Coast. Ninety-nine percent of 
plastic is derived from fossil fuels. Of those plastics produced they 
will derive from either fracked gas or oil. The explosion of natural 
gas production has led to ever increasing demand for natural gas 
liquid, rich in the chemicals that serve as the building blocks of 
plastic production. Naphtha, a product of oil refining is another key 
of production. Only five companies account for over half of global 
naphtha sales: BP, Chevron, ExxonMobil, Shell and China National 
Petroleum Corporation. Four of five have refining capacity along our 
coast within an hour of our front door.\1\
---------------------------------------------------------------------------
    \1\ Center for International Environmental Law, Fueling Plastics: 
Fossils, Plastic & Petrochemical Feedstocks (September, 2019), 
available electronically https://www.ciel.org/wp-content/uploads/2017/
09/Fueling-Plastics-Fossils-Plastics-Petrochemical-Feedstocks.pdf.
---------------------------------------------------------------------------
    We are already exposed to a dangerous mix of toxic pollutants, both 
authorized and unauthorized, released by many different industrial 
sources located along the Houston Ship Channel. Over the last several 
years that petrochemical complex has been expanding. Post hurricane 
Harvey we began tracking emissions and came to understand that the 
expansions hitting our communities were related to a rapidly, and ever-
growing, market in plastic. Ethane crackers, terminals, and logistics 
plants all centered around one thing: the production of plastic. We 
understood that these expansions focused on ethylene crackers and LNG 
but now we began to understand the major economic pivot oil and gas is 
undergoing, shifting from traditional production into new forms of 
petroleum utilization. However, as they grew, so too did the 
instability of these petrochemical plants and with it has come an 
increase in chemical disasters.
    In the most recent fire, 37 people were injured, some with first-
degree burns. Workers were initially evacuated but later required to 
re-enter the plant as the fire was still burning. To compound the 
problem, the Commission's Baytown air quality monitors malfunctioned 
during the event and thus deprived community members of invaluable air 
quality data to protect their health. While those fires blazed 
community members were wholly unaware of the fire or proper shelter-in-
place procedures. ExxonMobil has a 10-year investment of $20 billion in 
their Grow the Gulf Project.
    Recent Disasters:

    <bullet> ExxonMobil Fire March 16, 2019.

    <bullet> The ITC fire, March 17, 2019 over eight cities held 
            hostage under a chemical plume 47 miles long, 17 miles 
            wide.\2\
---------------------------------------------------------------------------
    \2\ https://www.click2houston.com/news/how-it-happened-a-timeline-
of-the-deer-park-chemical-fire.

    <bullet> ExxonMobil Olefins Fire, July 31, 2019, 37 workers were 
            injured.\3\
---------------------------------------------------------------------------
    \3\ https://www.houstonchronicle.com/news/houston-texas/houston/
article/ExxonMobil-s-Baytown-fire-the-latest-in-a-14270558.php#photo-
18007536.

    <bullet> September 20, 2019, nine chemical barges collide after 
            Tropical Storm Imelda damaging evacuation routes.\4\
---------------------------------------------------------------------------
    \4\ https://www.khou.com/article/traffic/i-10-east-freeway-shut-
down-after-barges-break-loose-hit-bridge/285-d522e91e-1a54-4b2d-9269-
fe44d75f6c81.

    In a recent report the Center for International Environmental Law 
found that, ``If trends in oil consumption continue as expected, the 
consumption of oil by the entire plastics sector will account for 20 
percent of the total consumption by 2050.''
    A recent study by uncovered ``two-thirds of the 90 plastics-related 
facilities in the Houston region violated air pollution control laws 
over the last 5 years and were subject to enforcement actions. But many 
more exceeded their permits and were not penalized, state records 
show.'' \5\ These compounding emissions result in cumulative impacts 
for neighboring communities, including an increased risk for developing 
cancer and other health conditions.
---------------------------------------------------------------------------
    \5\ Environmental Integrity Project, Growth of Houston-Area 
Plastics Industry Threatens Air Quality and Public Safety (September 5, 
2019), available electronically at https://www. 
environmentalintegrity.org/wp-content/uploads/2019/09/Plastics-
Pollution-on-the-Rise-report-final.pdf.
---------------------------------------------------------------------------
    The production of plastic releases toxics like 1,3, butadiene, 
benzene, ethane, styrene, toluene. In the short term they look like: 
headaches, fatigue, weakness, memory loss, nausea, nose bleeds, 
unconsciousness. In the long term: asthma, anemia, central nervous 
system damage, childhood leukemia and other cancers, kidney and liver 
damage, sterility, and even death.\6\ The effect is even more severe on 
children, seniors and the already sick.
---------------------------------------------------------------------------
    \6\ https://www.ciel.org/wp-content/uploads/2019/02/Plastic-and-
Health-The-Hidden-Costs-of-a-Plastic-Planet-February-2019.pdf.
---------------------------------------------------------------------------
    Plastic poses a distinct risk to public health from wellhead to 
waste. From our dinner table to the depths of our oceans. Every part of 
the chain that creates plastic harms us. Plastic had to be produced 
near vulnerable communities that used fossil fuel that were extracted 
next to PEOPLE--BLACK, BROWN, POOR, INDIGENOUS, IMMIGRANT and so many 
others had to pay the price in shortening the lives of our children's 
health. The devastating extraction from our land that shakes our earth. 
The production of plastic treats us as disposable, as a byproduct that 
can be ignored. OUR LIVES CANNOT AND WILL NOT BE SACRFICED FOR 
CONVENIENCE.
    The American Chemistry Council predicts industry will invest $204 
billion by 2030 on 334 new and expanded facilities in the United States 
alone.\7\
---------------------------------------------------------------------------
    \7\ https://www.americanchemistry.com/Policy/Energy/Shale-Gas/.
---------------------------------------------------------------------------
    We know our community is not alone in this struggle. The Gulf Coast 
is known for housing some of the most sophisticated refining capacity 
in the world. This should not come at the detriment of us at the 
fenceline.
    For us on the fenceline, this is not an exercise in paper pushing 
or number crunching: not addressing this issue with the necessary 
enforcement disproportionately harms people of color. There is no 
amount of money that can make up health impacts from additional 
emissions and also fugitive emissions associated with additional units 
or points of emission.
    It is vital that community voices be heard at the decision-making 
table, these are the daily decisions that can drastically alter the 
outcomes for generations to come. Legislation and policies that 
safeguard our already overburdened communities is necessary for our 
survival. You don't have to lose a child, mother or friend to 
understand our fight for life.

                                 *****

The following documents were submitted as supplements to Mr. Parras' 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --  Report, Plastics Pollutions on the Rise: Growth of Houston-Area 
            Plastics Industry Threatens Air Quality and Public Safety, 
            Environmental Integrity Project, September 5, 2019

    --  Brief on Plastic in the Gulf Coast--Buildout Hazards to Human 
            Health and Microplastics

    --  Fueling Plastic Series--Center for International Environmental 
            Law

            --  Fueling Plastics: Fossils, Plastics, & Petrochemical 
        Feedstocks

            --  Fueling Plastics: How Fracked Gas, Cheap Oil, and 
        Unburnable Coal are Driving the Plastics Boom

            --  Fueling Plastics: Plastic Industry Awareness of the 
        Ocean Plastics Problem

            --  Fueling Plastics: Untested Assumptions and Unanswered 
        Questions in the Plastics Boom

    --  Plastics & Climate: The Hidden Costs of a Plastic Planet--
            Center for International Environmental Law

    --  Plastic & Health: The Hidden Costs of a Plastic Planet

    --  Videos

            --  The Story of Plastic Teaser

            --  How Plastic Production Pollutes Small Towns

            --  Manchester--Tejas

                                 ______
                                 

         Questions Submitted for the Record to Mr. Juan Parras

Mr. Parras did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

                  Question Submitted by Rep. Lowenthal
    Question 1. Mr. Parras, the environmental justice component and how 
frontline communities are affected by the health impacts of plastic 
refining and production facilities are too often overlooked. Can you 
please describe for the Committee the relationship between the plastic 
life cycle and environmental justice?

    1a. The industry is looking to increase production over the next 
decade, if the projections for increasing plastic production come true, 
what will the impacts of new facilities be on communities of color and 
other overburdened communities?

    1b. How can Congress better support EJ communities in their fight 
against the plastic industry?

    1c. Given the relationship between greenhouse gas emissions and 
plastic production, how much of an impact would phasing out single-use 
plastics have on curbing greenhouse gas emissions? 

                  Question Submitted by Rep. Velazquez
    Question 1. Can you describe the relationship between the plastic 
life cycle and environmental justice? What institutional systems are in 
place that have allowed these impacts to occur?

                     Question Submitted by Rep. Cox
    Question 1. Mr. Parras, while the research is still out on 
microplastics' human health impacts, it sounds like the communities 
that TEJAS works with have some experience with that question. 
Recently, I introduced a bill to help prevent asthma in rural 
communities. Is asthma a potential concern with plastic production and 
incineration?

                                 ______
                                 

    Dr. Lowenthal. Thank you, Mr. Parras.
    The Chair now recognizes Dr. Jambeck to testify for 5 
minutes.
    Welcome to the Committee, Dr. Jambeck.

  STATEMENT OF DR. JENNA JAMBECK, PROFESSOR OF ENVIRONMENTAL 
      ENGINEERING, UNIVERSITY OF GEORGIA, ATHENS, GEORGIA

    Dr. Jambeck. Thank you, Chairman Lowenthal, Ranking Member 
McClintock, and the rest of the Subcommittee. I am honored to 
be here to testify at this hearing.
    My name is Jenna Jambeck, I am a professor of Environmental 
Engineering at the University of Georgia and a National 
Geographic Fellow. I have been conducting research on solid 
waste for over 23 years, with related projects on marine debris 
itself for 18, especially projects regarding location and 
spatial analysis, quantification and characterization, and 
global plastic waste management.
    I have also witnessed and sampled plastic in the ocean, 
sailing across the Atlantic in 2014. I have co-developed the 
Mobile Litter Logging App--Marine Debris Tracker, which was 
funded by the NOAA Marine Debris Program in 2011, where over 2 
million items have been logged by people all over the world.
    I have previously testified to the Senate on this issue, to 
the Subcommittee on Fisheries, Water, and Wildlife.
    I am also a participant in the International Informational 
Speakers Program with the U.S. State Department. This has 
brought me to 13 different countries and economies around the 
world to engage with governments, academics, NGOs, and citizens 
on this issue.
    I have submitted a longer written document, but my 
testimony today is my opinion based upon my background and 
experience conducting research on marine debris plastic and 
waste.
    When I testified previously to Congress in 2016, I spoke to 
educate and raise awareness of this issue based upon my 
research. But we now know we have a major problem with plastic 
ending up in our environment and in the ocean. The science on 
this issue has increased rapidly just in the past 4 years.
    We now know we have produced 8.3 billion metric tons of 
plastic as of 2017. And since about 40 percent of this is used 
for packaging and single-use items, it means that 6.3 billion 
of that had become waste by 2015.
    So, what have we done with that waste? How did we manage 
it?
    We have recycled about 9 percent of that cumulatively, 
those vary locally. But, on average, globally recycled only 
about 9 percent. Another 12 percent had been incinerated. That 
means 79 percent has ended up either in a landfill or in the 
open environment.
    As a result of weathering and exposure to sunlight, plastic 
that is in the environment doesn't biodegrade. It simply 
fragments into smaller and smaller pieces, and with an unknown 
fate, I would say, of the smallest particles that we can't even 
measure yet.
    You heard the number in our Science paper in 2015. We 
estimated the global quantity of plastic entering the oceans at 
8 million metric tons in 2010, and that is equal to about a 
dump truck of plastic entering every minute. So, although there 
have been actions taken globally to stop the business-as-usual 
projection of this input doubling by 2025, plastic production 
use and population growth are all driving factors that have 
resulted in an increase of plastic used and in our waste 
streams.
    We can all agree we want to keep plastic out of the ocean 
in the first place. There is a tremendous opportunity for 
continued bipartisan support and action on this issue. In the 
intervention framework I developed in 2016, we start all the 
way upstream with reducing waste generation, especially in 
places with high per-person waste generation rates, like here 
in the USA. Our waste generation rate is two to six times that 
of many countries around the world, especially still 
economically developing countries. And this reduction can be 
obtained through a combination of individual choice, policies, 
and industry-led changes.
    For when we do need packaging, there needs to be a more 
distinct connection between design, material choice, and end-
of-life management of materials. Currently, the waste 
management system has to deal with whatever comes their way. 
This is one contributing factor to the historical practice of 
exporting nearly 50 percent of our plastic recycling to other 
countries, primarily those of lower income, which contributes 
to the environmental pollution in their country, as well.
    Engagement of all stakeholders across all points of this 
issue, from production, to use, to management, is critical to 
make sure all voices are heard. So, one reminder I always have 
to give: there are people behind all the numbers I gave you. We 
need to collectively come up with creative, socially and 
culturally appropriate solutions, because we are all here today 
presenting to you. I am optimistic we can do that, and I will 
continue to work hard on science to inform policy. But everyone 
has an important role to play.
    In my last points, I want to encourage you to try two 
experiments.
    First, for the next 24 hours, take note of everything that 
you touch that is plastic. From this you will see how widely 
used and useful the material is, but it also makes you reflect 
upon where and when are the right times and places to use this 
material.
    Second, go outside on a scavenger hunt for litter--you 
won't likely have to go far--and look at each item you find as 
a message for you, the figurative or sometimes literal message 
in a bottle. Ask yourself three questions: one, what is it; 
two, how did it get here; and three, what are we going to do 
about it?
    Community-based data collection and citizen science within 
a framework and structure can contribute to critical data 
needed to inform circular materials management in communities. 
And I believe questions like these can empower citizens, NGOs, 
corporations, and policy makers like you to take the most 
relevant, impactful action for their country, state, or 
community.
    Thank you.

    [The prepared statement of Dr. Jambeck follows:]
      Prepared Statement of Jenna R. Jambeck, Ph.D., Professor of 
   Environmental Engineering, College of Engineering, University of 
          Georgia, Athens, Georgia; National Geographic Fellow
                               key points
    Based upon my testimony, the top five recommendations for how 
Congress can best support research, cleanup, or prevention efforts to 
combat marine debris are:

  1.  Funding the current agencies and initiatives, as well as new 
            research through other agencies to provide science to 
            further determine human health impacts (e.g., micro and 
            nanoplastics) and mitigate this issue through the entire 
            value chain of plastic (e.g., fate and transport of plastic 
            in the environment, new materials and product design), 
            which can provide economic innovation and growth, and also 
            inform policy. Community-based data collection and citizen 
            science with proper frameworks and structure can contribute 
            to critical data needed to inform circular materials 
            management in communities on the front lines of waste 
            management.

  2.  To support prevention domestically, Congress could support 
            legislation to reduce waste generation to reduce leakage of 
            especially plastic packaging (and those items found in 
            typical beach cleanups), like deposit-return schemes which 
            show a 40 percent reduction in beverage containers where in 
            place in the USA, as well as, for example, product 
            stewardship/extended responsibility initiatives to increase 
            the collection and value of waste.

  3.  To support prevention internationally, we can continue to provide 
            funding through USAID and other bilateral initiatives, 
            which I have seen give NGOs the opportunity to catalyze 
            action, improve infrastructure and the economy, in 
            countries like Vietnam, Philippines and Indonesia. We also 
            need to make sure our exports are not negatively impacting 
            other countries and support development in other countries 
            so they may participate in trade using standards such as 
            the OECD. We can also determine if our trade-agreements can 
            influence other countries improvement of environmental 
            standards, including solid waste management.

  4.  Show support for global initiatives to assist with the reduction 
            of plastic entering the ocean and improvement of waste 
            management infrastructure development around the world 
            (e.g., with world development banks, NGOs and industry), 
            along with technology and knowledge transfer to other 
            countries on solid waste management through, for example, 
            the U.S. State Department, U.S. EPA and NOAA. The newest 
            USAID CCBO funding is one aspect of this process.

  5.  Derelict fishing gear is one of the most dangerous types of 
            debris in the environment. Supporting the development of a 
            program (through an agency) for fisherman to drop off gear 
            that is broken or that they find could help this program 
            (providing collection and disposal in areas where DFG has 
            an impact). NOAA Marine Debris Program ``Fishing for 
            Energy'' or similar could continue and/or expand.

                              introduction
    I would like to thank Chairman Huffman, and the rest of the Water, 
Oceans and Wildlife Subcommittee for the opportunity to testify at this 
hearing to examine plastic's impact on the ocean. It is an honor and 
privilege to be with you today. My name is Jenna Jambeck and I am a 
Professor of Environmental Engineering at the University of Georgia and 
a National Geographic Fellow. I have been conducting research on solid 
waste issues for 23 years with related projects on marine debris since 
2001, especially projects regarding location and spatial analysis of 
debris, debris quantification and characterization, global plastic 
waste mismanagement and technology/mobile device usage (mapping, etc.). 
I have also sampled open ocean plastic sailing across the Atlantic and 
co-developed the mobile app, Marine Debris Tracker, funded by the NOAA 
Marine Debris Program. I have presented at three Capitol Hill staffer 
briefings, a Global Ocean Commission meeting, the 2015 Our Ocean 
Conference, a 2015 G7 workshop, and at the White House Office of 
Science Technology and Policy (OSTP). I also serve as the U.S. 
representative on an Advisory Panel for the United Nations Environment 
Program Global Partnership on Marine Litter. I testified on May 17, 
2016 to the Senate Subcommittee on Fisheries, Water and Wildlife on 
this topic. I have been in the International Informational Speakers 
Program with the U.S. State Department since 2017 and have been to 13 
different countries/economies working on the issue of marine debris and 
plastic waste in public environmental diplomacy (Chile, Philippines, 
Indonesia, Japan, South Africa, Vietnam, Jordan, Israel, South Korea, 
India, Bulgaria, Taiwan, and China). My testimony today is my opinion, 
based upon my background and experience in studying marine debris and 
plastic pollution.
                                context
    I think it is important to provide context and introduction similar 
to when I gave testimony to the U.S. Senate in 2016, the U.S. 
regulatory history is always relevant. I grew up in the 1970s outside a 
small town (fewer than 3,000 people) in Minnesota. Like many people at 
the time, we managed our trash by taking it to the landfill and putting 
it in ourselves. I always found it fascinating to see what people throw 
away--and I have seen bowling balls to bologna in landfills. In 
graduate school, my fascination turned into a passion for studying 
solid waste management as an environmental engineer. Environmental 
engineers can also design urban drinking water and wastewater 
facilities, but to me, solid waste management felt like it most closely 
involved people. Unlike the small effort required to turn off a faucet 
or flush a toilet (even a sensor can do this with no human effort), we 
all have to decide daily what to consume, what materials to use, what 
is and is not ``solid waste'' in our own home, and then whether to give 
away, discard, compost or recycle unwanted materials. The human 
component of solid waste management, and the direct interaction with 
people, is an aspect of my work that continues to be essential to my 
work.
    In 1976 Congress passed the Resource Conservation and Recovery Act 
(RCRA) that required the U.S. EPA (typically through the states) to 
regulate solid and hazardous waste.\1\ ``Open dumping'' was prohibited 
and replaced by engineered and regulated landfills, composting and 
recovery systems.\2\ RCRA also specifically called for research to 
inform solutions, including demonstrations and special studies on 
measures to reduce the generation of waste, waste collection practices, 
and economic incentives to promote recycling and waste reduction (among 
other things).\3\ Because of RCRA, we had outstanding progress in solid 
waste management, just in my lifetime. When I heard about our trash 
ending up in the ocean in 2001, I knew we must be contributing to it 
from the land, and started down the path of my current research. In 
this testimony, I am going to illustrate the direct connection between 
the solid waste (trash) we produce on land and the plastic found in our 
ocean, recalling that the human component goes hand in hand with local, 
state, regional, national and international initiatives to address this 
problem.
---------------------------------------------------------------------------
    \1\ Resource Conservation and Recovery Act (RCRA)--Public Law 94-
580, October 21, 1976, (42 U.S.C. 6901-6992; 90 Stat. 2795), as amended 
by P.L. 95-609 (92 Stat. 3081), P.L. 96-463 (94 Stat. 2055), P.L. 96-
482 (94 Stat. 2334), P.L. 98-616 (98 Stat. 3224), P.L. 99-339 (100 
Stat. 654), P.L. 99-499 (100 Stat. 1696), P.L. 100-556 (102 Stat. 
2779).
    \2\ Code of Federal Regulations (CFR) Title 40, Parts 239-282.
    \3\ https://www.epa.gov/aboutepa/new-law-control-hazardous-wastes-
end-open-dumping-promote-conservation-resources.
---------------------------------------------------------------------------
                              introduction
    Marine debris has been recognized as a contamination issue for more 
than 50 years \4\ but the laser-focus on plastic has occurred just in 
the past 5-7 years. Plastic completely changed our world after its 
expanded use in World War II, and global annual plastic production has 
increased from 1.7 million metric tons/yr in 1950 to 360 million metric 
tons/yr (not including polyester fibers) in 2019.\5\ Along with a steep 
increase in production, we have seen a resulting increase in plastic in 
the waste stream from 0.4 percent in 1960 to 12.7 percent in 2012 (by 
mass) in the United States. All traditional plastics do not biodegrade, 
but only fragment into smaller, ultimately microscopic or nanoscopic, 
pieces. A cumulative 8.3 billion metric tons of plastic has been 
produced since 1950.\6\ Since approximately 40 percent of plastic is 
used for packaging and single use items, this means that 6.4 billion 
metric tons has become waste by 2015 (Figure 1). Globally, on average, 
we have recycled only about 9 percent of plastic, with 12 percent 
recycled and 79 percent ending up in our landfills or in the 
environment. With cumulative quantities projected to reach 34 billion 
metric tons of production and 12 billion metric tons of waste, the 
management of plastic in the waste stream is only continuing to grow.
---------------------------------------------------------------------------
    \4\ Ryan, P. (2015). A Brief History of Marine Litter Research, in 
Marine Anthropogenic Litter, Bergmann et al. (eds.), Springer, New 
York, NY.
    \5\ Plastics Europe, https://www.plasticseurope.org/application/
files/9715/7129/9584/FINAL_web_ 
version_Plastics_the_facts2019_14102019.pdf.
    \6\ Geyer, R., Jambeck, J.R., Lavender Law, K. (2017). Production, 
use, and fate of all plastics ever made, Science Advances, 19 Jul 2017, 
Vol. 3, no. 7.

               Figure 1. Global Materials Flow of Plastic
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    .epsPolymers that make up the plastics that we commonly encounter 
are listed in Table 1. But plastics also contain additives to alter 
color, texture, shape, form, antimicrobial surfaces, make it flame 
retardant, and for other properties.\7\ The wide variety of available 
additives results in thousands of different plastic material compounds 
for particular purposes, creating a diverse array of plastic materials 
that end up in our trash, which can make recovery and recycling 
challenging. In the USA, the per person waste generation rate ranges 
from 4.48 to 6 lbs/person/day (2 to 2.7 kg/person/day), depending on 
the reference examined.\8\ This is 2-6 times the waste generation rates 
of many countries around the world.\9\ The recycling percentage for all 
plastic in the USA is the same as the global average, with only about 9 
percent of plastic recycled, although rates for individual polymers 
vary (Table 1).\10\
---------------------------------------------------------------------------
    \7\ Additives have been mixed into plastic compounds since they 
have been in the consumer market: Deanin, R.D. (1975). Additives in 
plastics, Environmental Health Perspectives, 11:35-39.
    \8\ https://www.epa.gov/facts-and-figures-about-materials-waste-
and-recycling/national-overview-facts-and-figures-materials#Generation; 
https://erefdn.org/national-waste-generation-recovery-and-disposal-
assessment/.
    \9\ http://datatopics.worldbank.org/what-a-waste/.
    \10\ https://www.epa.gov/sites/production/files/2018-07/documents/
smm_2015_tables_and_figures _07252018_fnl_508_0.pdf.

     Table 1. Common Polymers, Uses and Density related to Seawater

------------------------------------------------------------------------
                  Recycling  Sink or Float                   USA Recycle
    Polymer        Number     in Seawater    Common Use(s)       Rate
------------------------------------------------------------------------
Polyethylene             1   Sink           Individual       18.4%
 Terephthalate                               beverage
 (PET)                                       bottles,
                                             textiles
------------------------------------------------------------------------
High Density             2   Float          Gallon jugs,     10.3%
 Polyethylene                                some personal
 (HDPE)                                      care product
                                             and detergent
                                             bottles
------------------------------------------------------------------------
Polyvinyl                3   Sink           Piping, siding   Negligible
 Chloride (PVC)                              (construction)
------------------------------------------------------------------------
Low Density              4   Float          Retail bags,     6.2%
 Polyethylene                                thin film
                                             plastic
------------------------------------------------------------------------
Polypropylene            5   Float          Bottle caps,     0.9%
                                             yogurt
                                             containers,
                                             toys
------------------------------------------------------------------------
Polystyrene              6   Sink           Foamed/expanded  1.3%
                              (expanded      PS in
                              floats)        packaging
------------------------------------------------------------------------
Others                   7   Nylon sinks    Fishing nets     22.6%
                                             (nylon),
                                             carpet
------------------------------------------------------------------------


    Since plastic ``degrades'' through fragmentation, the result is 
microplastic (smaller than 5 mm in size) in the environment. Secondary 
microplastics are formed by the fragmentation of larger items. Primary 
microplastics are manufactured in these small sizes. Some sources of 
primary microplastic are resin pellets and microbeads. Resin pellet 
loss has been addressed by the industry though their Operation 
CleanSweep program,\11\ and recent Federal legislation banned 
microbeads in personal care products as of 2018.\12\ Secondary 
microplastics are found on our coastlines, in our sediments, and 
floating in the ocean aggregating in the five oceanic gyres. Using the 
largest available ocean microplastics dataset, a recent study estimated 
that 15 to 51 trillion particles, with a mass of 93 to 236 thousand 
metric tons, are floating on the sea surface globally; this is 
equivalent to only about 1 percent of the estimated input of plastic 
waste to the ocean from land in a single year.\13\ Where the remaining 
plastic debris is in the ocean remains a major unanswered question. The 
majority of field sampling to date captures only particles larger than 
approximately one-third of a millimeter in size, but increasing numbers 
of reports of synthetic fibers (from clothing and woven ropes, for 
example) in freshwater and marine environments, and even in air, make 
microfibers now a major concern.\14\ And, while many people think of 
marine debris as being only in the ocean environment, the Great Lakes 
are governed by NOAA's Marine Debris Program, and are known to be 
contaminated with plastic (REF) and not to be overlooked are inland 
riverine inputs of which there are two global estimates for, but could 
make up 5 percent to 50 percent (likely around 25 percent) of the 
global inputs of plastic into the ocean.\15\
---------------------------------------------------------------------------
    \11\ https://opcleansweep.org/.
    \12\ https://www.congress.gov/114/plaws/publ114/PLAW-
114publ114.pdf.
    \13\ van Sebille, E., Wilcox, C., Lebreton, L., et al. (2015). A 
global inventory of small floating plastic debris, Environmental 
Research Letters, 10 124006.
    \14\ Woodall, L.C., Gwinnett, C., Packer, M., et al. (2015). Using 
a forensic science approach to minimize environmental contamination and 
to identify microfibres in marine sediments. Marine Pollution Bulletin, 
95(1), 40-46; Watts, A.J.R., Urbina, M.A., Corr, S., et al. (2015). 
Ingestion of Plastic Microfibers by the Crab Carcinus maenas and Its 
Effect on Food Consumption and Energy Balance, Environmental Science & 
Technology, 49(24), 14597-14604.
    \15\ Lebreton, L.C.M., et al. River plastic emissions to the 
world's oceans. Nat. Commun. 8, 15611 (2017); Schmidt, C., Krauth, T., 
Wagner, S. Environ. Sci. Technol., 2017, 51, 21, 12246-12253; Lechner, 
A., Keckeis, H., Lumesberger-Loisl, F., et al. (2014). The Danube so 
colourful: A potpourri of plastic litter outnumbers fish larvae in 
Europe's second largest river, Environmental Pollution, 188, 177-181.
---------------------------------------------------------------------------
    In the last decade, scientific research into marine debris, and 
especially plastic, has increased. In 2011, a scientific working group 
was convened at the National Center for Ecological Analysis and 
Synthesis (NCEAS). I was honored to be a part of this working group 
that spent 3\1/2\ years synthesizing data to describe the scale and 
impact of trash in ocean ecosystems. At least nine scientific articles 
have been produced from this group describing information to date,\16\ 
advancing the science. The NCEAS work, along with other recent 
scientific work, has brought attention to the issue of plastic in the 
oceans further validating action at the global scale by the G7, G20, 
United Nations, and multinational global funding entities like the 
World Bank, the Global Environment Fund (GEF). In 2018, the Save Our 
Seas Act was passed with unanimous bipartisan support. And Save Our 
Seas 2.0 is in the legislative process now.
---------------------------------------------------------------------------
    \16\ I reference some of them in this document, but the full list 
is available online here: https://www.nceas.ucsb.edu/projects/12645#.
---------------------------------------------------------------------------
    Similar to RCRA in the 1970s, sound science should be used when 
determining policies and solutions. Today, we have sufficient evidence 
to guide action to reduce inputs of plastic into the ocean. In 
parallel, new scientific information should be created to help us 
better understand the sources, sinks and impacts of plastic in our 
oceans.
                   impacts from plastic marine debris
    I will cover impacts briefly here, with further detail able to be 
obtained in my previous testimony to the Senate.\17\ In 1966, two U.S. 
Fish and Wildlife Service employees, Karl W. Kenyon and Eugene Kridler, 
were among the first scientists to document plastic and wildlife 
interactions when they discovered plastic was consumed by seabird 
(Albatross) chicks that had died in the Hawaiian Islands National 
Wildlife Refuge.\18\ Since that time, many individuals of a multitude 
of different species of wildlife have been found to be impacted by 
plastic. Like in the Albatross chicks in 1966, ingestion of and 
entanglement are the most commonly reported interactions. A 
comprehensive critical review of the literature on marine debris 
impacts was led by Dr. Chelsea Rochman in the NCEAS group. Of the 296 
perceived threats of debris to wildlife that were tested, 83 percent 
were demonstrated (proven), and 82 percent of those were from plastic. 
There is evidence of impacts to individual animals and to assemblages 
of organisms suggesting decision makers should take action in order to 
avoid risk of ``irreversible harm.'' \19\
---------------------------------------------------------------------------
    \17\ https://www.epw.senate.gov/public/_cache/files/8/0/8074ded1-
5986-4a9b-b033-2eb69e66993f/B775115948AB5A3C80BDDB5B0287E8B3.jambeck-
testimony.pdf.
    \18\ Kenyon, K.W., & Kridler, E. (1969). Laysan Albatrosses swallow 
indigestible matter. Auk, 86, 339-343, also referenced in Ryan, P. 
(2015). A Brief History of Marine Litter Research, in Marine 
Anthropogenic Litter, Bergmann et al. (eds.), Springer, New York, NY.
    \19\ Rochman, C.M., Browne, M.A., Underwood. A.J., et al. (2016). 
Ecology, 97(2), 302-312.
---------------------------------------------------------------------------
    Lost fishing equipment (e.g., nets and traps) can ``ghost fish,'' 
or drift while continuing to catch fish and kill wildlife. This can 
have an impact on the fishing and shellfish industry. One study in 
Puget Sound alone analyzed 870 recovered ``lost'' gillnets and found 
31,278 invertebrates (76 species), 1,036 fishes (22 species), 514 birds 
(16 species), and 23 mammals (4 species); 56 percent of invertebrates, 
93 percent of fish, and 100 percent of birds and mammals were dead when 
recovered.\20\ When experts were asked which marine debris item poses 
the greatest risk to marine life, fishing-related gear ranked first, 
followed by balloons and plastic bags.\21\
---------------------------------------------------------------------------
    \20\ Good, T.P., June, J.A., Etnier, M.A., et al. (2010). Derelict 
fishing nets in Puget Sound and the Northwest Straits: Patterns and 
threats to marine fauna, Marine Pollution Bulletin, 60(1), 39-50.
    \21\ Wilcox, C., Mallos, N., Leonard, G.H., et al. (2016). Using 
expert elicitation to estimate the impacts of plastic pollution on 
marine wildlife, Marine Policy, 65 (2016), 107-114.
---------------------------------------------------------------------------
    Marine debris can present physical hazards to shipping, boating, 
fishing and industrial systems by blocking navigation, fouling boat 
propellers, clogging water intakes or blocking pumping systems. Coastal 
tourism is also affected by marine debris and other litter. In the 
1980s, when medical waste was found on some beaches, communities lost 
millions of dollars from a decline in tourism and increased costs for 
beach cleanup maintenance.\22\ A 2014 study by the NOAA Marine Debris 
Program in Orange County, CA found that (1) residents are concerned 
about marine debris, and it significantly influences their decisions to 
go to the beach, (2) No marine debris on the beach and good water 
quality are the two most important beach characteristics to them, and 
(3) Avoiding littered beaches costs Orange County residents millions of 
dollars each year. If the debris were reduced by just 25 percent, it 
would save residents roughly $32 million dollars in reduced travel to 
other beaches.\23\ UNEP estimates the financial damage of plastics to 
marine ecosystems globally is $13 billion each year.\24\ A recent study 
outlined that there are negative impacts to almost all marine ecosystem 
services, negative impacts to human well-being (fisheries, heritage and 
recreation) at a cost of $3,300 to $33,000 per metric ton of marine 
plastic per year, equaling $264 billion per year at the mid-input 
estimate.\25\
---------------------------------------------------------------------------
    \22\ NRC (National Research Council) Committee on Shipborne Wastes, 
Clean Ships, Clean Ports, Clean Oceans, National Academy Press, 
Washington D.C., 1995.
    \23\ Chris Leggett, Nora Scherer, Mark Curry and Ryan Bailey, 
Assessing the Economic Benefits of Reductions in Marine Debris: A Pilot 
Study of Beach Recreation in Orange County, California, Industrial 
Economics, Inc., for the NOAA Marine Debris Program, 2014.
    \24\ Raynaud, J. (2014). Valuing Plastic: The Business Case for 
Measuring, Managing and Disclosing Plastic Use in the Consumer Goods 
Industry, UNEP, Plastic Disclosure Project, Trucost.
    \25\ Beaumont, N., Aanesen, M., Austen, M., et al. Global 
ecological, social and economic impacts of marine plastic, Marine 
Pollution Bulletin, Vol 142, 2019, Pages 189-195.
---------------------------------------------------------------------------
    Plastic also hosts an entire microbial community termed the 
``plastisphere.'' \26\ Plastic can transport non-native species and 
provide habitat for microbes that might not otherwise thrive, but we 
don't yet know the full extent of this microbiome on ocean microbiology 
or the broader ocean ecosystem. Plastics in the ocean are associated 
with chemicals. This includes organic compounds like flame retardants, 
pesticides, and polychlorinated biphenyls (PCBs) that accumulate on the 
plastic from surrounding water. It also includes the additive 
ingredients of the plastic that can leach into the surrounding 
environment. Thus, plastic can transport these compounds around the 
world and be another potential source of contaminants to wildlife.\27\ 
Some of the additives to plastic have come under question for 
toxicity,\28\ but we don't yet know the full impact they have on 
aquatic systems.\29\ Still, there has been evidence of the transfer of 
chemicals from plastic to fish in the lab, causing liver toxicity and 
impacting functions of the endocrine system and to other organisms in 
the field.\30\ Plastic particles and fibers have also been found in the 
stomachs of fish, and in shellfish sold for human consumption.\31\
---------------------------------------------------------------------------
    \26\ A recent summary article that references multiple scientific 
references on this: Samoray, C. (2016). Ocean's plastics offer a 
floating fortress to a mess of microbes, Science News Magazine, 
February 9, 2016; Zettler, E.R., Mincer, T.J., Amaral-Zettler, L.A. 
(2013). Life in the ``Plastisphere'': Microbial Communities on Plastic 
Marine Debris, Environmental Science & Technology, 47(13), 7137-7146.
    \27\ Same as note 6. Plus, a good overview is Rochman, C. (2015). 
The Complex Mixture, Fate, and Toxicity of Chemicals Associated with 
Plastic Debris in the Marine Environment, in Marine Anthropogenic 
Litter, Bergmann et al. (eds.), Springer, New York, NY.
    \28\ For example, Antimicrobial--Yueh, M. and Tukey, R.H. (2016). 
Triclosan: A Widespread Environmental Toxicant with Many Biological 
Effects, Annual Review of Pharmacology and Toxicology, 56:251-272; 
Flame Retardants--Agency for Toxic Substances and Disease Registry, 
Toxic Substances Portal--Public Health Statement for Polybrominated 
Diphenyl Ethers (PBDEs), September 2004 (accessed May 11, 2016) http://
www.atsdr.cdc.gov/phs/phs.asp? id=899&tid=94.
    \29\ Teuten, E.L., Saquing, J.M., Knappe, D.R.U., et al. (2009). 
Transport and Release of Chemicals from Plastics to the Environment and 
to Wildlife. Philosophical Transactions: Biological Sciences, 
364(1526), 2027-2045.
    \30\ Rochman, C.M., Hoh, E., Kurobe, T., et al. (2013). Ingested 
plastic transfers hazardous chemicals to fish and induces hepatic 
stress, Scientific Reports 3, No. 3263; Rochman, C.M., Kurobe, T., 
Flores, I., et al. (2014). Science of the Total Environment, Vol. 493, 
656-661; Jang, M., Shim, W.J., Han, G.M., et al. Styrofoam Debris as a 
Source of Hazardous Additives for Marine Organisms, Environmental 
Science & Technology, Article ASAP, DOI: 10.1021/acs.est.5b05485.
    \31\ Rochman CM, Tahir A, Williams SL, et al. Anthropogenic debris 
in seafood: Plastic debris and fibers from textiles in fish and 
bivalves sold for human consumption. Scientific Reports. 2015;5:14340.
---------------------------------------------------------------------------
           input into the ocean from mismanaged plastic waste
    In the NCEAS group, as we started compiling information about 
sources and inputs of plastic into the ocean, we quickly concluded that 
mismanaged solid waste (trash) made up a large portion of the input. 
Other inputs include, but are not limited to, commercial fishing gear, 
shipping, recreational boating and fishing, and catastrophic events. 
Our first objective was to quantify mismanaged waste from land. To make 
the estimate of plastics entering the ocean from waste management, we 
developed a comprehensive framework (Figure 1).
    Our methods for this estimate were to look at per person waste 
generation rates in 2010 from 192 countries with a coastline in the 
world. Because people's activities nearest the coast are responsible 
for most of the plastic going into the water, we limited our analysis 
to a 50 km strip of the coastline. From there, we looked at what 
percent of that waste is plastic, and what percentage of that is 
mismanaged waste (which means litter or when waste is not captured and 
dumped on the land). From there we had three scenarios of input into 
the ocean: low, mid and high.
    The results were that in 2010, we estimate that 275 million metric 
tons (MMT) of plastic waste was generated in 192 countries. Of that, 
99.5 MMT of this waste was generated within 50 km of the coastline, and 
31.9 MMT was mismanaged. We then estimated that between 4.8 and 12.7 
MMT (a mid-scenario of 8 MMT) reached the oceans \32\ (Figure 2). This 
annual input of plastic is equal to five grocery-size bags filled with 
plastic going into the ocean along every foot of coastline in the 
world.
---------------------------------------------------------------------------
    \32\ Jambeck, J.R., Andrady, A., Geyer, R., et al. (2015). Plastic 
waste inputs from land into the ocean, Science, 347, p. 768-771.
---------------------------------------------------------------------------

    Figure 2. Plastic Waste Inputs from Land into the Ocean in 2010
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    .epsThe United States is one high income country on the list, and 
while our waste management systems are well-designed and very 
effective, and the only mismanaged waste is from litter, we have a 
large coastal population and a large waste generation rate. If we look 
to the future, and assume a business as usual projection with growing 
populations, increasing plastic consumption and increased waste 
generation, but no increase in capture of waste, by 2025, the 8 million 
metric tons doubles--with a cumulative input by 2025 of 155 million 
metric tons.
                     import-export of plastic waste
    While recycling and the circular economy have been touted as 
potential solutions to this issue, one can see from the recycling 
percentages given in the introduction, we have a long way to go for 
recycling to be significant. Approximately half of the plastic waste 
intended for recycling has been exported to hundreds of countries 
around the world (Figure 3).

        Figure 3. Trade of Plastic Waste in Mass and Trade Value

                           (UN Comtrade Data)
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



    .epsBefore their import restrictions (resulting really in a ban) in 
2017, China had imported a cumulative 45 percent of plastic waste since 
1992.\33\ Compiled commodity trade data by Amy Brooks in my research 
group illustrated that higher-income countries in the Organization for 
Economic Cooperation (OECD) have been exporting plastic waste (70 
percent in 2016) to lower-income countries in the East Asia and Pacific 
for decades. An estimated 111 million metric tons of plastic waste is 
displaced with the new Chinese policy by 2030 begging the question of 
where this plastic goes now and will continue to go--and causing one of 
the biggest economic disruptions to recycling ever to happen in the 
USA. With 89 percent of historical exports consist of polymer groups 
often used in single-use plastic food packaging (polyethylene, 
polypropylene, and polyethylene terephthalate), bold global ideas and 
actions for reducing quantities of nonrecyclable materials, redesigning 
products, and funding domestic plastic waste management are needed. The 
USA and others who have exported to countries that lack waste 
management systems are responsible for some of this mismanagement. In 
China alone, this added another 11 percent of plastic mass to their 
waste stream to manage in 2015. Rethinking trade agreements and the 
balance of resources to be able to participate in trade for countries 
(like small island sates) that need to, is important. This is also a 
large global economic system that involves the livelihood of millions 
of people around the world. Improving their conditions and protecting 
the environment should be paramount. New amendments to the Basel 
Convention have put requirements on exporting countries to at least 
notify and get consent for shipments.\34\ The USA could help lead 
efforts to both improve and develop domestic infrastructure while 
participating in responsible global trade of recycled materials.
---------------------------------------------------------------------------
    \33\ Brooks, A., Wang, S. Jambeck, J. (2018). The Chinese import 
ban and its impact on global plastic waste trade, Science Advances, 20 
Jun 2018: Vol. 4, no. 6, DOI: 10.1126/sciadv.aat0131.
    \34\ http://www.basel.int/Implementation/Plasticwastes/Overview/
tabid/6068/Default.aspx.
---------------------------------------------------------------------------
                          it's a global issue
    Once plastic is in our oceans, it becomes a global issue and poses 
great logistical and economic challenges to get it out. In addition, 
the plastic is not always visible (although we find it everywhere we 
look, we have only quantified a fraction in our ocean compared with 
what is going in), so understanding potential risk to our ecosystems 
requires two things: (1) understanding the impact and (2) understanding 
the exposure. Our recent estimate of plastic entering the oceans 
informs the second part--exposure, just how much plastic is going into 
the ocean? But it also makes us ask--where is all the plastic going? 
While we know action will help ``turn off the faucet'' of plastic input 
(see potential interventions, below), there are still gaps in the 
sources, distribution, fate and impacts of plastics in the ocean that 
need more research if we want to continue to move forward in addressing 
this issue based upon science.\35\
---------------------------------------------------------------------------
    \35\ A good recent review of why it is important to move forward 
with science-based solutions is provided in Rochman, C. (2016). 
Strategies for reducing ocean plastic debris should be diverse and 
guided by science, Environmental Research Letters, 11 014006.
---------------------------------------------------------------------------
                interventions and mitigation strategies
    I developed the framework below for my 2016 testimony \36\ and 
would like to submit it again with some ideas, further explanation and 
answers to some of the questions posed by the Senators in this hearing. 
This framework provides intervention points (1 through 5) and then a 
list of potential (but not all encompassing) interventions that may 
occur at the various points. In general, this represents a hierarchy of 
interventions. However, the most ``bang for your buck'' interventions 
will depend on the needs of the specific geography addressing the 
issue, however, in many cases, all geographies have points along the 
entire framework that will help reduce debris and plastic going into 
the ocean. Some interventions can be immediate and some will take more 
time. The framework starts on the left with the most ``upstream'' 
interventions and ends with a last chance to capture the material 
before it enters the ocean. In many cases the interventions offer the 
opportunity for economic innovation and growth. The USA could be a 
leader in several of these categories of interventions.
---------------------------------------------------------------------------
    \36\ https://www.epw.senate.gov/public/_cache/files/8/0/8074ded1-
5986-4a9b-b033-2eb69e66993f/B775115948AB5A3C80BDDB5B0287E8B3.jambeck-
testimony.pdf.
---------------------------------------------------------------------------

 Figure 4. Intervention and Mitigation Strategies along some Points in 
                        the Plastic Value Chain
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    I'll now discuss some potential intervention points identified 
in Figure 2 in a bit more detail.
1.0  Reducing plastic production
    Plastic production is one of the ``book ends'' of the plastic value 
chain. Other than a few of the past 65 years, global plastic production 
has increased annually, and is anticipated to continue to do so into 
the near future. Although it comes from fossil fuels for the most part, 
and is produced from monomers that come from the processing of oil and 
natural gas, these monomers (e.g., ethylene and propylene) are used to 
make many different compounds, not just polymers. As long as other 
common chemicals are made, it is likely that polymers will continue to 
be made as well. And, as economies around the world continue to 
develop, packaged goods become more prevalent. Unless the industry 
changes its own course, this stage is mostly influenced if levers in 
other stages are pushed (e.g., demand is decreased for other reasons 
along the value chain). Reduction in demand comes primarily from the 
points given below.

  1.  Consumers demanding less packaging or no packaging (some markets)

          a.   Not everyone has access to clean water, for example, so 
        can't always make the choice of a reusable bottle, but these 
        choices taken collectively where possible do make a difference

  2.  Local initiatives (e.g., bans, taxes)

          a.   These are often very local-specific, but are also 
        becoming more common

          b.   Mass of items removed may be relatively small, but 
        numbers of items are also important--there is more than one way 
        to measure debris (e.g., mass, count, etc.)

  3.  Voluntary industry actions

          a.   Industry has become more engaged on this issue--I wonder 
        if they will volunteer some changes to help in the future as 
        well?

          b.   The reality is that all signs point to further growth in 
        waste generation, as well as plastic use, especially where 
        economic development is occurring or predicted to occur in the 
        future

2.0  Innovative Materials and Product Design
    New materials development and product design take time to advance, 
so these activities need to be happening now--and they are, but even 
more time and resource investment is needed. Overall, I think Green 
Engineering principles,\37\ if followed during material development and 
product design, would help to avoid many of the externalities of 
plastic that we are dealing with currently. In addition, circular 
economy concepts, emerging all over the world now, will be important to 
also apply to plastic materials. Both of these guiding principles 
promote non-toxic materials, ultimately with the capability of 
biodegrading and/or being recycled. Materials and products made with 
more homogenous compounds would make recycling more efficient and 
effective. Materials and products can be designed to retain their 
value, for collection, recovery and recycling. Several of these 
concepts are outlined in Ellen MacArthur Foundation's report on the 
``The New Plastic Economy: Rethinking the Future of Plastics,'' which 
focuses specifically on packaging.\38\ The University of Georgia has 
combed environmental engineering and polymer chemistry in a successful 
and rapidly expanding New Materials Institute with centers on 
biodegradable polymers and circular materials management to develop and 
test materials to reduce the flow of plastic into the ocean. NMI has 
become part of a National Science Foundation (NSF) Industry--University 
Cooperative Research Centers (IUCRC) that has over 30 corporate 
partners interested in more sustainable and biodegradable polymer 
products. These industry-research groups participate in pre-competitive 
research and development as new materials need to scale to be 
economical for all to use. There is no doubt that developing 
alternative materials without the unintended consequences of 
traditional plastics will spark innovation and economic growth in the 
USA where truly biodegradable polymer production facilities (e.g., 
Polyhydroxyalkanoates (PHA)), like the ones in Georgia owned by Danimer 
Scientific and RWDC are creating jobs. There are many current corporate 
commitments to change materials, use more recycled materials, and be 
more circular with materials--many of these commitments have been made 
at the Our Ocean meeting that just occurred for the sixth time in Oslo 
October 23-24. $652 million was committed by governments, corporations 
and NGOs to reduce ocean pollution, including plastics. Commitments to 
move to redesign were made by Unilever and PepsiCo, for example, moving 
to reduction in virgin plastic use and increases in recycled 
content.\39\ Specific points are given for redesign and material 
substitution below:
---------------------------------------------------------------------------
    \37\ http://www.acs.org/content/acs/en/greenchemistry/what-is-
green-chemistry/principles/12-principles-of-green-engineering.html.
    \38\ https://www.ellenmacarthurfoundation.org/publications/the-new-
plastics-economy-rethinking-the-future-of-plastics.
    \39\ https://ourocean2019.no/wp-content/uploads/2019/10/20191025-
Commitments-1616.pdf.

  1.  Sustainable packaging associations (pre-competitive 
---------------------------------------------------------------------------
            collaborations)

          a.   E.g., UGA's New Materials Institute IUCRC, Sustainable 
        packaging coalition, Green-Blue: These pre-competitive 
        environments could help develop alternatives, standardize 
        packaging and help packaging retain value so that it is easier 
        to recycle and less leakage will occur if it has value.

  2.  Truly biodegradable alternatives (e.g., PHA)

          a.   PHA is expanding in the market in the USA and is 
        creating economic value (new facility opening in Kentucky--
        several open in Georgia already). While it may biodegrade if 
        littered in the environment, it should still be managed in the 
        solid waste system, and be thoughtful about where used (in 
        currently non-recyclable items, for example). But it has the 
        possibility of being home-composted as well. The USA is 
        currently a leader in the development of this material.

          b.   An important distinction should be made with polylactic 
        acid (PLA), a popular corn-based polymer is bio-based and 
        industrial compostable (avoids using fossil fuels as 
        feedstock), but it will not biodegrade in home composting or in 
        the ocean. It will not biodegrade if littered on land. It has 
        to reach a high temperature (reached in industrial composting) 
        to be able to biodegrade.

  3.  Packaging with more value (e.g., single, homogenous materials, 
            design for recycling/end-of-life)

          a.   This can be helped by collaborations between industry, 
        brands and waste managers/experts

  4.  Design out problematic items/materials (e.g., caps/lids)

          a.   Similar to how aluminum can ``pop-top'' opening was 
        changed to a tab that stayed on (so the pull tabs did not get 
        littered), we can innovate design for items that leak into the 
        environment (if data is collected--see intervention point 5, 
        last chance capture).

3.0  Reduce Waste Generation
    In places like the United States, where we already have high per 
person waste generation rates, we can examine methods of waste 
reduction. For example, some of us have the luxury of being able to 
make choices about single use items we use daily. The majority of us 
have access to clean drinking water infrastructure so we can use a 
reusable water bottle, reusable coffee mug, bring a reusable bag to the 
grocery store, and say ``no'' to straws (or get reusable ones). These 
seem like small and mundane things, but what our research on plastic 
input showed is that since population density is such a big driver of 
these inputs, just one small choice, taken collectively, can make a big 
difference. There is a bit of a ``chicken and egg'' scenario here 
though, consumers can make choices, but they also need availability and 
access to those choices. For example, it might be hard to not buy 
bottled water if you don't have access to a drinking fountain or water 
filling station. But this is also where policies regarding specific 
items of concern can provide motivation. Waste reduction can also occur 
from participation in new collaborative and sharing economies. These 
new paradigms are emerging and technology and social media are helping 
to move them forward. People are choosing to own less and ``share'' 
more. It started with car and bike shares, but has expanded to tools, 
and even clothing. As people become more aware of the issue of plastic 
in our environment, they are demanding companies reduce waste 
themselves, and help provide the right choices and infrastructure for 
people to reduce their own waste generation. Specific points on waste 
reduction below--and asking the question, can we decouple waste 
generation from economic growth? I get very excited to see what my 
students and young innovators will create in this category daily.

  1.  Using reusable items (e.g., bottles, mugs, bags, etc.) and if 
            this is challenging for citizens, I ask them to think about 
            why and what change is needed so it is possible at the 
            government or corporate level? Then advocate for that 
            change.

  2.  Sharing, Collaborative Economy concepts

          a.   Bike shares, car shares, tool shares, clothing rental, 
        etc. these all reduce the need to purchase and create waste 
        (facilitated by technology), but still meet people's needs and 
        can still create revenue for the companies providing the 
        services.

          b.   How can these concepts be related to packaging? (see 
        2.b)

  3.  Decouple waste generation with economic growth (facilitated by 
            technology)

          a.   Reuse programs (using mobile phones, which many people 
        have globally, especially where rapid economic growth is 
        occurring)

          b.   RFID, mobile phones, smart-labels, etc. (e.g., RFID 
        water refill stations exist for both Coca-Cola and PepsiCo 
        products, but are not yet widely distributed yet)

4.0  Improve Waste Management Globally
    Improving waste management globally could go a long way to keeping 
a large mass of plastic out of the ocean (realizing mass is not the 
only meaningful metric for plastic--volume, count, shape, or impact to 
wildlife are other metrics). For example, in our Science paper the top 
20 countries' mismanaged plastic waste encompassed 83 percent of the 
total input in 2010. But with a combined strategy, in which total waste 
management is achieved in the 10 top-ranked countries and plastic waste 
generation is capped, a 77 percent reduction could be realized by 2025. 
That sounds simple. We know how to design waste management systems, but 
in light of the context I gave at the beginning, waste management is 
much more than just a design challenge, it also has deep social and 
cultural dimensions. So we need to work together at a combination of 
local and global initiatives, and we need global participation from 
various stakeholders along the entire value chain of plastic (see 
following section on Circularity Assessment Protocol). Per person waste 
generation is coupled with economic development and, in many cases, the 
waste stream has fairly quickly changed characteristics to include more 
plastic. There are still many people in both the United States and 
globally that are unaware of the consequences of plastic in our aquatic 
environment.
    Globally, innovation and creativity is needed in this space and 
people are heeding the call. Large, global NGOs are partnering with 
local groups in areas of concern to try to implement culturally 
appropriate mitigation strategies. Infrastructure is being integrated 
into existing informal waste management sectors in the hopes of 
continuing and improving people's livelihoods. U.S.-based groups can 
help in efforts for this global problem by connecting with groups who 
are trying to address these issues in their own countries, and there is 
a lot of work to be done. Some concepts that can be drivers in this 
area: zero waste (reduce disposal or destruction of waste to as close 
to zero as possible) and product stewardship/extended producer 
responsibility (waste management responsibility is shared or is the 
entire responsibility of product manufacturers). Plastic reuse and 
recycling can grow if the right economic structure is in place to 
motivate the collection of plastic waste and its reprocessing. Many 
local groups in global communities need some added support to elevate 
and expand what they are already doing to bring it to scale. Policies 
like deposit-return schemes reduce the quantity of plastic that reaches 
the environment. In U.S. states that have these schemes, a 40 percent 
reduction of beverage containers is observed.\40\
---------------------------------------------------------------------------
    \40\ Schuyler, Q., Hardesty, B.D., Lawson, T.J., et al. Economic 
incentives reduce plastic inputs to the ocean, Marine Policy, Volume 
96, 2018, Pages 250-255.
---------------------------------------------------------------------------
    Solid waste collection can be a hyper-local activity and can look 
different in each country, city and even neighborhood. Plastic has made 
it a more complicated and created a rapid change in the waste stream 
that we were ill prepared for. It creates a waste stream that is more 
varied and dynamic than we have ever experienced before. It has proved 
to be quite a challenge for waste operators and municipalities to 
manage. I have developed a ``Five C'' approach for this intervention 
point.

  1.  Collect: May be traditional, on-demand, or decentralized waste 
            collection

          a.  Collection innovation is needed--revers logistics may 
        play a role

  2.  Capture: Material Recovery Facilities, waste depots, waste banks, 
            community centers (e.g., ``punto limpio'' in Chile)

  3.  Contain: Recycling or engineered disposal

  4.  Context and 5. Culture--these can ``make or break'' the success 
            of a potential intervention. The local community and 
            stakeholders absolutely need to be engaged and involved 
            from the start through the end of any project and not just 
            led through it, but their local and indigenous knowledge is 
            critical

5.0  Litter Capture
    Litter capture and collection is the last point to keep materials 
from entering the ocean. It is reserved for mostly the litter that 
occurs from inadvertent littering, lack of awareness and behavior 
issues. After outreach and education to prevent litter in the first 
place, there are street sweeping, municipal litter clean-up programs 
and stormwater catchment systems, all which will only be conducted in 
their respective jurisdictions. An innovative example of a final 
catchment device is the Baltimore Water Wheel.\41\ Operated off of 
mechanical and solar energy in Baltimore Harbor, ``Mr. Trash Wheel'' 
has booms that skim the surface of the harbor and direct the floating 
trash to the conveyer system that removes it from the water and places 
it into a dumpster to be managed properly.
---------------------------------------------------------------------------
    \41\ http://baltimorewaterfront.com/healthy-harbor/water-wheel/.
---------------------------------------------------------------------------
    Non-governmental organization and volunteer cleanups to remove 
litter have been occurring for years. These events certainly help to 
keep litter from entering the ocean, and they are also a source of 
data. The Ocean Conservancy's International Coastal Cleanup is now in 
its 33rd year and it not only helped to remove 0ver 10,500 metric tons 
of debris from beaches in 2018, but it has spread awareness and 
education as well. For the first time in 2017 and also in 2018, the top 
10 items found on beaches for the ICC were all plastic. In 2011, my 
colleague Dr. Kyle Johnsen and I co-developed a mobile app called 
Marine Debris Tracker at the University of Georgia funded by the NOAA 
Marine Debris Program. The Marine Debris Tracker mobile app and citizen 
science program allow for the collection of global standardized data at 
a scale, speed, and efficiency that wasn't previously possible.\42\ It 
also spreads awareness and education about this issue wherever it is 
used. Individuals all over the world have helped to clean up or 
document over 2 million items--by simply hitting a few buttons on their 
mobile phone to tell us what they found. User metrics provide a ranking 
and our largest group user is the Georgia Sea Turtle Center protecting 
and caring for Sea Turtles on Jekyll Island, GA and one of our largest 
individual users is in Omaha, NE (not far from the Missouri River) 
where he has collected over 87,000 pieces of litter alone, over the 
past 7.5 years. We, along with our app users, have fostered an online 
community through social networks--everyone is supportive of each 
other's efforts and individuals know that they are a part of a large 
global effort. There is now enough (opportunistic) data in the database 
to start to examine characteristics and trends based upon the spatial 
and temporal data provided by our extremely dedicated users. Data is 
critical to informing upstream solutions and can really empower 
communities and decision makers to be able to take actions driven by 
data. Last-chance cleanup points are summarized below.
---------------------------------------------------------------------------
    \42\ Jambeck, J.R., Johnsen, K. (2015). Marine Debris Tracker: 
Citizen-based Litter and Marine Debris Data Collection and Mapping, 
Computing in Science and Engineering, 17(4), 20-26; http://
www.marinedebris.engr.uga.edu/.

---------------------------------------------------------------------------
  1.  Engineered, mechanical systems

          a.  Mr. Trash Wheel or other engineered devices

  2.  Manual (by hand)

          a.  Cleanups (e.g., ICC by Ocean Conservancy)

          b.   Use of ocean-bound plastic can catalyze the development 
        of infrastructure since the material now has value--often a 
        much higher value than it did previously (e.g., Parley, Dell, 
        NextWave plastics)

  3.  Data to feed back to Interventions 1 through 4 in the Framework

          a.   E.g., Marine Debris Tracker developed by UGA (or other 
        apps) to collect data

          b.   Could make upstream choices/changes based upon what is 
        leaking into the environment

             community-based data collection and assessment
    Communities are the at the frontlines of this issue. They are where 
solid waste is managed and many decisions and development of waste 
management systems are made. They also experience the direct impacts of 
plastic pollution in their local environment. It is important we work 
with communities in the decision-making process to be able to come 
together on realistic and viable solutions. After I began traveling for 
the U.S. State Department for the International Informational Speakers 
Program in 2017 (that has now brought me to 13 countries), I often find 
myself in the same situation over and over again. Speaking with 
governments and communities about this issue, they would say to me, 
``Well now that we know more about this issue, what can we do?'' and I 
would pause (since I had not often been there very long typically), and 
tell them that they have the local and indigenous knowledge for 
solutions to this issue--they know their own context and culture. But I 
could also look around and take note of what I saw to contribute data 
for them to use . . . from what stores and cafes were selling in 
packing, from waste and recycle bins I saw, to litter on the ground. I 
also thought more about the concept of the circular economy--being 
touted as a solution to this issue, what does it really mean at the 
community level? How does a community move closer, or even see where 
they are at, related to the circular economy? In addition the community 
systems are an inherently complex, sociotechnical system, which is 
difficult to define with traditional metrics. There was a need for a 
methodology and a framework that provides a baseline understanding, 
illustrates the impacts of changes in the system, and facilitates 
useful knowledge exchange between cities, while allowing for flexible 
adaptation to local knowledge and expertise.
    This is the context for how our Circularity Assessment Protocol 
(CAP) was developed in our Center for Circular Materials Management 
(the only center of its kind in the USA), in our New Materials 
Institute at the University of Georgia. Conducted in collaboration with 
a community and eventually by the community itself, the CAP 
characterizes seven community components: (1) inputs, (2) consumers, 
(3) product design, (4) use, (5) collection, (6) end-of-cycle 
management (e.g., waste management), and (7) plastic leakage into the 
environment. Various influencing factors drive this system including 
governance, economics, policy and legislation (e.g., bans, taxes, 
extended producer responsibility). Furthermore, multiple stakeholders 
exist at every level of the CAP influencing the complex system and 
these include citizens, government, industry, NGOs and academia. While 
the hub and spoke model illustrates the CAP (Figure 5), it is a complex 
system with components inherently interconnected to each other and to 
life-cycle impacts beyond each component.

    Figure 5. The Hub and Spoke Model of the Circularity Assessment 
                             Protocol (CAP)
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    While the CAP is a framework approach to addressing marine 
litter originating from land-based sources, it can also include data 
collection for marine or water-based sources through parallel research 
questions, and the quantity of leakage from this sector can be 
characterized during litter assessments (e.g., if fishing gear is an 
issue, it is typically evident on litter surveys on land as well). The 
framework supports points of intervention and actions, including 
guidance on effective impact (in terms of environmental and economic) 
to improve circularity. The CAP can help to inform a community by 
giving them a baseline assessment to work from and direct potential 
actions to take to improve the areas that most need it, and to answer 
specific questions they have about their own community. The CAP can 
inform and support the government to define policies and good practices 
related to solid waste management and infrastructure, including 
facilitating an understanding of solid waste and plastic management 
through a social lens. This can provide an understanding of people's 
actions (both local and transient) which will inform policy and 
interventions.
    The CAP is being used for projects funded by the World Bank, 
National Geographic, the Asia-Pacific Economic Cooperation (APEC) 
through the Ocean Conservancy, and USAID. Projects are completed or 
active in the Seychelles, Philippines (metro Manila), Chile, India, 
Bangladesh and at least two places in the USA, one small island 
community and a large metropolitan coastal city. A scaled-down version 
of CAP is being conducted in 30 small island and coastal community 
stopovers around the world with eXXpedition, and further development of 
the CAP for communities to conduct the process themselves within the 
framework is underway.
   the united states can be a global leader in addressing this issue
    Once plastic enters the ocean, it quickly becomes a global problem. 
The United Nations Environment Program has been addressing this issue 
through the Global Partnership for Marine Litter, with resolutions 
anticipated out of a meeting later this month. There is also the 
discussion of a global agreement with the potential for flexibility of 
countries to be able to reach reduction goals as they see fit. But the 
United States should be a leader in addressing this global issue, and 
it has in some ways. The U.S. Department of State has worked on this 
issue through the G7, G20 and Our Oceans conference. The NOAA Marine 
Debris Program started in 2006 with the Marine Debris Reduction Act 
(reauthorized in the Save Our Seas Act) and is one of the few agencies 
to provide grant assistance to community groups and research. The U.S. 
EPA has a Trash Free Waters Program that has expanded recently in 
bringing in partners and pilot sites around the U.S. NOAA and the U.S. 
EPA (chair and vice chair, respectively) lead the Interagency Marine 
Debris Coordinating Committee (IMDCC), a multi-agency body responsible 
for streamlining the Federal Government's efforts to address marine 
debris. Representatives meet to coordinate a comprehensive program of 
marine debris activities and make recommendations for research 
priorities, monitoring techniques, educational programs, and regulatory 
action. The IMDCC participants are the U.S. Army Corps of Engineers, 
U.S. Navy, U.S. Coast Guard, U.S. Fish and Wildlife Service, Bureau of 
Safety and Environmental Enforcement, Department of Justice, 
Environmental and Natural Resources Division, Department of State, 
Office of Marine Conservation, and the Marine Mammal Commission. 
Another group that has worked on U.S.-based marine debris issues is the 
National Fish and Wildlife Foundation. While U.S. scientists, 
universities, and research groups are at the forefront of the science 
of marine debris, there have only been a few research grants funded 
through the National Science Foundation and NOAA. Even while a 
multitude of domestic agencies and research groups have been working on 
this issue, resources are limited for addressing this issue and meeting 
our goals in being global leaders. Multi-agency cooperative programs 
could further advance the science of plastic contamination and 
pollution while also providing future economic benefits through start-
up companies and whole new industries. Community-based and citizen 
science programs to collect badly needed data, like our CAP using the 
Marine Debris Tracker mobile app can be used in the USA, as well as 
around the world.
                                summary
    Based upon my testimony, the top five recommendations for how 
Congress can best support research, cleanup, or prevention efforts to 
combat marine debris are:

  1.  Funding the current agencies and initiatives, as well as new 
            research through other agencies to provide science to 
            further determine human health impacts (e.g., micro and 
            nanoplastics) and mitigate this issue through the entire 
            value chain of plastic (e.g., fate and transport of plastic 
            in the environment, new materials and product design), 
            which can provide economic innovation and growth, and also 
            inform policy. Community-based data collection and citizen 
            science with proper frameworks and structure can contribute 
            to critical data needed to inform circular materials 
            management in communities on the front lines of waste 
            management.

  2.  To support prevention domestically, Congress could support 
            legislation to reduce waste generation to reduce leakage of 
            especially plastic packaging (and those items found in 
            typical beach cleanups), like deposit-return schemes which 
            show a 40 percent reduction in beverage containers where in 
            place in the USA, as well as, for example, product 
            stewardship/extended responsibility initiatives to increase 
            the collection and value of waste.

  3.  To support prevention internationally, we can continue to provide 
            funding through USAID and other bilateral initiatives, 
            which I have seen give NGOs the opportunity to catalyze 
            action, improve infrastructure and the economy, in 
            countries like Vietnam, Philippines and Indonesia. We also 
            need to make sure our exports are not negatively impacting 
            other countries and support development in other countries 
            so they may participate in trade using standards such as 
            the OECD. We can also determine if our trade-agreements can 
            influence other countries improvement of environmental 
            standards, including solid waste management.

  4.  Show support for global initiatives to assist with the reduction 
            of plastic entering the ocean and improvement of waste 
            management infrastructure development around the world 
            (e.g., with world development banks, NGOs and industry), 
            along with technology and knowledge transfer to other 
            countries on solid waste management through, for example, 
            the U.S. State Department, U.S. EPA and NOAA. The newest 
            USAID CCBO funding is one aspect of this process.

  5.  Derelict fishing gear is one of the most dangerous types of 
            debris in the environment. Supporting the development of a 
            program (through an agency) for fisherman to drop off gear 
            that is broken or that they find could help this program 
            (providing collection and disposal in areas where DFG has 
            an impact). NOAA Marine Debris Program ``Fishing for 
            Energy'' or similar could continue and/or expand.

    As environmental engineers, we manage all solid waste that comes 
our way. But by connecting our activities on land with what ends up in 
our oceans, and through that awareness, realizing that we should be 
thinking about end-of-life in materials development and product design 
stages, we can shift the paradigm of ``waste'' to materials management. 
Also, the worldwide interest on this topic has put the spotlight on 
global solid waste management infrastructure needs, and so we need to 
collectively come up with creative, socially and culturally appropriate 
mitigation strategies. Collectively, we hold the key to this problem. 
By changing the way we think about waste, reducing at source, designing 
products for their end-of-life management, valuing secondary materials, 
collecting, capturing and containing our waste, we can open up new jobs 
and opportunities for economic innovation, and in addition, improve the 
living conditions and health for millions of people around the world 
while protecting our oceans.
Previous questions from Congress:
1. What are some of the most promising innovations?
    In my opinion some of the most interesting and promising 
innovations are the ones that decouple waste generation from economic 
growth. How can we meet people's needs and increase livelihood without 
creating more waste to manage? Sharing and collaborative economy 
concepts, RFID cups, using technology to connect people and facilitate 
sharing and reuse programs all lead to potential interventions. Reduce 
waste generation in the first place.
2. What is role of PLA and other bio-based plastics?
    I think there is a role for material and product innovation and 
bio-based and biodegradable (truly) polymers will be a part of the 
solution. However, these materials are being produced at relatively low 
quantities right now, so they are not going to be a big market share 
for some time. And thought needs to go into what they replace as well 
as life-cycle trade-offs. And an understanding of situational 
biodegradability is critical.
3. Fisherman incentives
    I think incentives for fisherman to collect or bring back gear 
would be a way to get some of the most deadly gear out of the ocean and 
marine environment. I think also supplying a place for fisherman to put 
used gear is important (e.g., dumpster or recycle bin at the port). 
Tracking and transparency of nets--and really all plastic (as much as 
feasible) could help keep the material out of the ocean because we 
would have a better inventory of it.
4. What are some of the root causes?
    Responsibility--while not particularly popular in the USA, product 
stewardship is an important concept to discuss here. From an 
engineering standpoint, when a company wants to build a development/
civil engineering project, there often is a partnership with the 
community. One example, I live near an above ground storage tank farm, 
and trucks come and go from it regularly. There were likely road 
improvements needed to be able to build the tank farm and the company 
who constructed it may have contributed to that infrastructure since 
they were building at this site. In some ways, this can be analogous to 
selling products in a country or location that does not have 
infrastructure to manage the waste created from those products. I don't 
think companies knew the issues this would bring. And I think they want 
to help based upon new awareness, but we are certainly playing ``catch-
up'' with the issue now. Besides policies in other countries, some 
companies are doing this individually, but many still don't know how to 
help with infrastructure. I think that facilitating this in some way 
could be significant--maybe it will all be individual public-private 
partnerships, but some thought could go into how to facilitate 
companies engaging in shared responsibility. Ultimately it will take 
shared actions by industry, municipalities, and citizens to make 
significant positive change on this issue.
    As often said, there is no one solution to this issue, but an 
integrated approach is needed to reduce and eliminate plastic entering 
and impacting our ocean.

                                 ______
                                 

Questions Submitted for the Record to Jenna R. Jambeck, Ph.D. Professor 
  of Environmental Engineering, College of Engineering, University of 
                                Georgia
                 Questions Submitted by Rep. Lowenthal
    Question 1. Why is it important to work with local communities to 
identify their sources of plastic pollution and possible solutions?

    Answer. It is important to work with local communities because 
plastic inputs and waste are created and managed at the community 
level, i.e., our communities are on the front lines. So understanding 
their needs, context and situation is important. Even if a Federal 
policy is enacted, the communities will be impacted. Disposal and 
recycling are commonly different from community to community. Community 
engagement, including co-creation, or at least buy-in, on potential 
solutions is critical to implementation and participation. While local 
solutions can scale to make them larger and more impactful, exploring 
what communities need can inform Federal legislation.
    As referenced in my written testimony, one example is the 
Circularity Assessment Protocol (CAP), developed in the Center for 
Circular Materials Management (the only center of its kind in the USA), 
in the New Materials Institute at the University of Georgia. Conducted 
in collaboration with a community and eventually by the community 
itself, the CAP characterizes seven community components: (1) inputs, 
(2) consumers, (3) product design, (4) use, (5) collection, (6) end-of-
cycle management (e.g., waste management), and (7) plastic leakage into 
the environment. Various influencing factors drive this system 
including governance, economics, policy and legislation. Furthermore, 
multiple stakeholders exist at every level of the CAP influencing the 
complex system and these include citizens, government, industry, NGOs 
and academia. While a simple hub and spoke model illustrates the CAP, 
and data collection is rapid and easy to collect through a 
collaborative effort by the community members and researchers, it is a 
complex system with components inherently interconnected to each other.
    One of the largest benefits to CAP is that it can help to inform 
and empower a community by giving them a starting assessment to work 
from and direct potential actions to take to improve the areas that 
most need it, and to answer specific questions they have about their 
own community. The CAP can inform and support the government to define 
policies and good practices related to solid waste management and 
infrastructure, including facilitating an understanding of solid waste 
and plastic management through both and technical and social lens. This 
can provide an understanding of people's actions (both local and 
transient) which will inform policy and interventions.
    Other community-based work that I have participated in is the 
National Geographic Sea to Source Expedition along the Ganges River in 
India. This expedition focuses on plastic pollution in three key areas: 
land, water and people. On land, we collect data about the input and 
use of plastic in communities, how waste is collected and managed, and 
characterize the movement and type of plastic in the environment. The 
water team studies plastic pollution in the air, water, sediment and 
species in and around the river. The socioeconomic team surveys local 
communities along the expedition route to better understand awareness 
and perceptions of plastic pollution, household plastic waste 
management and local solutions for addressing this issue. During the 
expeditions, we engage the local community, and work with stakeholders 
to empower then to find context-sensitive solutions that can help drive 
a long-term positive change. This kind of interdisciplinary and 
community-based work, incorporating easy-to-follow citizen science 
methods and cutting-edge technology can be a spark for continued change 
on this issue. Similar kind of work could be conducted in major river 
waterways in the USA as well. Previous data on the USA is only an 
estimated model based upon reported solid waste infrastructure. And, as 
one of the largest waste generators in the world, we really don't know 
(except for a few exceptions where collection takes place, like Mr. 
Trash Wheel \1\) what plastic leaks into and from our waterways in our 
own backyard.
---------------------------------------------------------------------------
    \1\ https://www.mrtrashwheel.com/.

    Question 2. There was a lot of discussion on the societal relevance 
of plastic as it is. What innovations and alternatives are available or 
---------------------------------------------------------------------------
coming very soon?

    Answer. I think the USA was sold short by the hearing discussion 
that there was no alternatives and no other material to use besides 
traditional plastic. E.g., we have solved the ``what to do without 
plastic to hold toothpaste problem'' and there are solid toothpaste 
``chews'' in several different brands available packaged without 
plastic, including one very successful women-owned and operated U.S.-
based company called Bite.\2\ The USA in many ways is, and can continue 
to expand, in leading the world on innovative materials and 
alternatives to traditional plastic. Already polylactic acid (PLA) 
exists and a large amount of R&D has been conducted in the USA on it. 
While it does not avoid all unintended consequences of traditional 
plastic, it does avoid using fossil fuels as a feedstock and serves as 
an example to the economic growth and development of a new material 
that serves the needs of traditional plastics but is different from it 
in some ways. As stated in the testimony though, an important 
distinction should be made with PLA, as it will not biodegrade in home 
composting or in the ocean. It will not biodegrade if littered on land. 
It has to reach a high temperature (reached in industrial composting) 
to be able to biodegrade.
---------------------------------------------------------------------------
    \2\ https://bitetoothpastebits.com/.

    Also included in my testimony is an entire section on Innovation 
---------------------------------------------------------------------------
summarized here:

    Overall, I think Green Engineering principles,\3\ if followed 
during material development and product design, would help to avoid 
many of the externalities of plastic that we are dealing with 
currently. In addition, circular economy concepts, emerging all over 
the world now, will be important to also apply to plastic materials. 
Both of these guiding principles promote non-toxic materials, 
ultimately with the capability of biodegrading and/or being recycled. 
Materials and products made with more homogenous compounds would make 
recycling more efficient and effective. Materials and products can be 
designed to retain their value, for collection, recovery and recycling. 
The University of Georgia has combined environmental engineering and 
polymer chemistry in a successful and rapidly expanding New Materials 
Institute with centers on biodegradable polymers and circular materials 
management to develop and test materials to reduce the flow of plastic 
into the ocean. NMI has become part of a National Science Foundation 
(NSF) Industry--University Cooperative Research Centers (IUCRC) that 
has over 30 corporate partners interested in more sustainable and 
biodegradable polymer products. These industry-research groups 
participate in pre-competitive research and development as new 
materials need to scale to be economical for all to use. There is no 
doubt that developing alternative materials without the unintended 
consequences of traditional plastics will spark innovation and economic 
growth in the USA where truly biodegradable polymer production 
facilities (e.g., Polyhydroxyalkanoates (PHA)), like the ones in 
Georgia owned by Danimer Scientific and RWDC are creating jobs (see 
more in the answer below to Question 3). Specific points for redesign 
and material substitution are:
---------------------------------------------------------------------------
    \3\ http: / / www.acs.org / content / acs / en / greenchemistry / 
what-is-green-chemistry / principles / 12-principles-of-green-
engineering.html.

  A.  Sustainable packaging associations (pre-competitive 
---------------------------------------------------------------------------
            collaborations)

          a.   E.g., UGA's New Materials Institute IUCRC, Sustainable 
        packaging coalition, Green-Blue: These pre-competitive 
        environments could help develop alternatives, standardize 
        packaging and help packaging retain value so that it is easier 
        to recycle and less leakage will occur if it has value.

  B.  Truly biodegradable alternatives (e.g., PHA)

          a.   PHA is expanding in the market in the USA and is 
        creating economic value (new facility opening in Kentucky--
        several open in Georgia already). While it may biodegrade if 
        littered in the environment, it should still be managed in the 
        solid waste system and be thoughtful about where used (in 
        currently non-recyclable items, for example). But it has the 
        possibility of being home-composted as well. The USA is 
        currently a leader in the development of this material.

          b.   Danimer Scientific in collaboration with Frito-Lay is 
        working on PHA packaging as well, so a major brand is making 
        this shift too, scaling this to more USA-based economic growth.

  C.  Packaging with more value (e.g., single, homogenous materials, 
            design for recycling/end-of-life)

          a.   This can be helped by collaborations between industry, 
        brands and waste managers/experts

  D.  Design out problematic items/materials (e.g., caps/lids)

          a.   Similar to how aluminum can ``pop-top'' opening was 
        changed to a tab that stayed on (so the pull tabs did not get 
        littered), we can innovate design for items that leak into the 
        environment (if data is collected at last chance capture).

    Question 3. Is there a positive economic impact from the 
development of alternatives to traditional plastic?

    Answer. Yes, while there is an economic component to traditional 
plastics to the economy and jobs, the alternatives can create similar 
output and work opportunities (see some in the answer to Question 2, 
above). And the USA can be at the forefront of this change.
    One specific example is a company called RWDC that works closely 
with the New Materials Institute at the University of Georgia. RWDC has 
just purchased a property in Athens, GA for their first production 
facility. They have already hired approximately 40 people and will 
bring 100 jobs to Athens-Clarke County, Georgia (one of Georgia's 91 
persistently poor counties) in the next year, and an estimated 210 jobs 
after 5 years. There is another site in Monroe, GA, where another 86 
jobs will be created within the next 2 years. And this is just one 
company growing as quickly as it can in the USA.

    Question 4. What are some of the benefits and trade-offs from 
switching away from traditional plastics?

    Answer. There is no doubt that plastic has changed our society and 
culture. It has brought us many things we rely on every day--this was 
the point of my 24-hour experiment. But, do we really need it for all 
those things? Some things yes, medicine, electronics, many what we call 
``durable goods''--but the single-use plastic, the packaging, and what 
ends up in the environment (the second and other critical part to the 
experiment I presented!)--how much of that needs to be plastic? We are 
not going to get rid of all plastic, but I think we need to be more 
thoughtful about where, when, and how we use it.
    Here are some examples of trade-offs that we might consider while 
thinking about plastic. Certainly plastic has brought light-weight 
benefits to food packaging, transport and allows food to be stored in 
sanitary ways, protecting the embodied energy that went into that food. 
Many times the carbon footprint of that food is large. Something to 
ponder, where do we draw the lines in these analyses? Why does our food 
have such a high carbon footprint/embodied energy? Should all food be 
distributed through the current model if it requires plastic packaging? 
I encourage people to think ``out of the packaging container'' and 
outline all the ways we can change the delivery of products and design 
of packaging. But, the best thing, environmentally speaking, is to not 
produce any waste in the first place, so that lends itself to reusable 
items. However, for when packaging is needed, what then, should it be 
made out of? Life-cycle assessments (LCA) were referred to in the 
hearing and I have conducted LCAs on various waste management scenarios 
myself.\4\ More upstream, product LCAs can inform packaging choices, so 
we can compare carbon footprint, energy use, water consumption, etc. of 
two products, for example a plastic v. a reusable bag. While the energy 
input or carbon footprint for production, for example, may be more for 
the reusable bag, the fact that you do not have to manage waste after 
its end-of-life is an energy and carbon off-set. While the plastic bag 
is light, it will have to be transported to a recycling or disposal 
facility and then managed there. In a carbon balance scenario, plastic 
does not release carbon at end of life, because as far as we know it 
does not practically degrade, so while it is not a benefit that it 
remains forever in a landfill, it does not release carbon while there. 
In addition, plastic bags have been known to jam up recycling systems 
at material recovery facilities (MRFs) and blow from landfills, making 
containment a challenge (and requiring human effort and machines to 
manage at landfills). These two situations do not fit into an LCA in a 
straight-forward way. And a last major limitation of this kind of LCA 
is that there is no way to include a littered plastic bag ending up in 
the ocean and a turtle eating it and dying. Animals killed from plastic 
litter does not fit into any LCA. So there are trade-offs that are a 
challenge to compare, and we need a better way to look at the systems 
holistically, even beyond our typical LCA. At a minimum, we need to be 
able to acknowledge, and talk through some of these trade-offs, in a 
systematic way.
---------------------------------------------------------------------------
    \4\ Jambeck, J., Weitz, K., Townsend, T., Solo-Gabriele, H. (2007). 
CCA-treated Wood Disposed in Landfills and Life-cycle Trade-Offs With 
Waste-to-Energy and MSW Landfill Disposal in the U.S., Waste 
Management, Volume 27, Issue 8, 2007, Pages S21-S28. http://
www.sciencedirect.com/science/article/pii/S0956053X07000773; Thorneloe, 
S., Weitz, K., Jambeck, J. (2007). Application of the U.S. Decision 
Support Tool for Materials and Waste Management, Waste Management, 27 
(2007) 1006-1020. http://www.sciencedirect.com/science/article/pii/
S0956053X0700058X.

                  Question Submitted by Rep. Velazquez
    Question 1. In your testimony you highlight corporate commitments 
made at the Our Ocean meeting in Oslo, can you describe what steps 
exactly are in motion to help reduce plastic pollution in the 
environment? Is it enough?

    Answer. The Our Ocean Commitments are available here: https://
ourocean2019.no/wp-content/uploads/2019/10/20191025-Commitments-
1616.pdf. For the first time that I can recall a company, Unilever, 
committed to an absolute reduction of plastic use. They are finding 
alternative ways of delivering products, as PepsiCo announced 
purchasing Soda Stream an alternative delivery mechanism for carbonated 
beverages as well. Other companies and governments made commitments too 
(and my mentioning those two companies by no means is an endorsement in 
any way). But no, these commitments are still not enough for a couple 
reasons. First, the corporations have the capacity to go further with 
these commitments and make them more impactful, but the commitments 
continue to get stronger each year, so they do indicate movement in the 
right direction. Another reason it is not enough is that I think 
multiple entities need to be involved to create a larger positive 
impact. No one ``group'' (e.g., industry, government, NGO) can do this 
alone. For example, corporations designing and using packaging need to 
speak with the waste management companies and these two systems, the 
input and the management, should be better integrated. I still see a 
lot of issues related to design and management that could be addressed 
by these two end-of-the-spectrum entities working together. For example 
if product stewardship or extended producer responsibility is 
considered, the impacts to the waste management companies--and their 
input--needs to be considered and heard. For all groups working on, and 
involved in, this issue--if each group makes some compromises, the 
shift each entity needs to make can be smaller in order to meet in the 
middle, yet still creating a truly impactful way forward. I recommend a 
U.S.-based summit where the relevant stakeholders can gather together 
to actively negotiate how new Federal policies could be endorsed in 
order to better protect the environment for all.


                    Questions Submitted by Rep. Cox
    Question 1. A recent study found 16 microplastic fibers in a single 
half-liter sample of water taken from the Capitol Visitor's Center. How 
did the microplastics get into the Capitol Visitor's Center drinking 
water or anybody's drinking water for that matter?

    Answer. I would have to see this study's methods to be able to 
comment on this specific result, but microfibers and microplastics have 
been found in freshwater, tap drinking water, groundwater and 
wastewater in published studies.\5\ This same research was a review of 
these published studies, and they found that methods are still widely 
conducted and not standardized, and in order to really find out the 
risk to human health from exposure, these methods need to be 
standardized to high levels. So to properly answer your question, there 
needs to be more research conducted based upon common research methods 
and standards. This would be a good role for the U.S. EPA to play in 
the USA, to direct the methods and standards for comparative purposes.
---------------------------------------------------------------------------
    \5\ Albert A. Koelmans, Nur Hazimah Mohamed Nor, Enya Hermsen, et 
al. Microplastics in freshwaters and drinking water: Critical review 
and assessment of data quality, Water Research, Volume 155, 2019, Pages 
410-422.
---------------------------------------------------------------------------
    At this point without more data, we can only guess at the sources 
of the fibers and particles. We know fibers are generated from washing 
clothes and unless otherwise captured,\6\ these go out with our 
wastewater to either septic or treatment plants (when treated). In 
cases where not treated, they would be directly discharged to the 
environment. Although we know that typically over 90 percent of the 
fibers can be removed from the wastewater treatment facility,\7\ it 
means they end up in the sludge that settles out and then is either 
managed at a landfill or in some cases, applied to the land where run-
off could reintroduce them to the environment again. We also know that 
fibers are transported by air, so atmospheric deposition (mostly 
regional, near-range likely) could be a transport into our 
freshwaters.\8\ So, it can end up in our source water from point source 
(wastewater), run-off and from the air. And, although drinking water is 
treated and many particles are removed, it is possible that some could 
remain. There has not been an investigation into the drinking water 
distribution system and its contribution, if any, to microplastic in 
water, but it is doubtful for microfibers as far as I am aware. If 
water is stored in an open glass in a room, microfibers will very 
likely fall into it--they are in the air all around us. Identifying 
them as a polymer with FTIR or Raman, for example, is very important so 
that we correctly identify if they are plastic or not.
---------------------------------------------------------------------------
    \6\ Hayley K. McIlwraith, Jack Lin, Lisa M. Erdle, et al. Capturing 
microfibers--marketed technologies reduce microfiber emissions from 
washing machines, Marine Pollution Bulletin, Volume 139, 2019, Pages 
40-45.
    \7\ JingSun, Xiaohu Dai, Qilin Wang, Mark C.M. van Loosdrecht, et 
al. Microplastics in wastewater treatment plants: Detection, occurrence 
and removal, Volume 152, 1 April 2019, Pages 21-37.
    \8\  Steve Allen, Deonie Allen, Vernon R. Phoenix, et al. 
Atmospheric transport and deposition of microplastics in a remote 
mountain catchment, Nature Geoscience volume 12, pages 339-344 (2019).

    Question 2. What do we know about the human health impacts of 
---------------------------------------------------------------------------
ingesting microplastics?

    Answer. We really don't know at this point--there are likely 
studies underway on this topic, but the potential impacts are not easy 
to study and if some of the plastics are at the nanoscale level, they 
are not able to be analyzed or identified at this point with current 
analytical capability. We know we are exposed through beverages we 
consume (including water) and some of the food we eat (e.g., salt), but 
we don't yet know the impact to humans. I also recommend referring to 
Dr. Chelsea Rochman's recent testimony to the House on this issue.\9\
---------------------------------------------------------------------------
    \9\ https: / / docs.house.gov / meetings / AP / AP06 / 20190919 / 
109934 / HHRG-116-AP06-WState-RochmanC-20190919.pdf.

    Question 3. Oftentimes we turn to alternatives to address 
environmental challenges like plastic pollution. In the case of climate 
change, we might use renewable power instead of coal. In the 
transportation sector, we see people switching to electric vehicles. 
However, there are always bumps in the road when we make these 
transitions, and it's our job here in Congress to smooth those out. 
Take the idea of adopting alternatives to plastic as an example. 
Explain to the Committee why we have not seen a more rapid transition 
---------------------------------------------------------------------------
to biodegradable plastics or plastic alternatives.

    Answer. I think the biggest reason here is cost. Traditional 
plastics are so inexpensive. There are alternatives developed and 
companies are working hard to scale them (see my answer to Rep. 
Lowenthal's Question 2, above). But the cost makes it challenging until 
they are able to scale. The development and manufacturing of 
alternative materials will have economic growth and provide job 
opportunities in the USA (also see my answers in Rep. Lowenthal's 
Question 3, above), so like your other examples for climate change, we 
can see transitions to different businesses and job growth, while 
making some of these changes. Policies that level the playing field for 
other materials and products would be helpful.

    Question 4. What are some of the actions that Congress could take 
to allow for increased adoption of more recyclable and environmentally 
friendly alternatives to plastic?

    Answer. As mentioned above, policies to level the playing field in 
the cost of materials for use can help here. These could include a tax 
or fee on certain kids of traditional resins, bans, and required design 
and procurement standards. Again, I think that these kinds of actions 
should take into account the impact on all relevant stakeholders to be 
able to move forward with a balance in terms of compromise. In some 
cases, end-of-life policies have an upstream impact, e.g., depending on 
how a product stewardship policy is written, it can impact design of 
products and materials chosen as well. The example from Norway that I 
often talk about it is the Extended Producer Responsibility (EPR) law 
in Norway influenced upstream design and recyclability of products. By 
requiring a certain percent of PET to be recycled, a company formed to 
help make this happen and in order to reach the needed recycling rates 
in the most efficient way, the design of PET bottles were changed so 
that they could be recycled bottle-to-bottle by Infinitum.\10\
---------------------------------------------------------------------------
    \10\ https://infinitum.no/english/about-us.

---------------------------------------------------------------------------
                                 ______
                                 

    Dr. Lowenthal. Thank you, Dr. Jambeck.
    The Chair now recognizes Tony Radoszewski to testify.
    Welcome to the Committee, Mr. Radoszewski.

  STATEMENT OF TONY RADOSZEWSKI, PRESIDENT AND CEO, PLASTICS 
              INDUSTRY ASSOCIATION, WASHINGTON, DC

    Mr. Radoszewski. Good afternoon, Chairman Lowenthal, 
Ranking Member McClintock, and members of the Subcommittee. 
Thank you for having me here today. My name is Tony 
Radoszewski, and I am the President and CEO of the Plastics 
Industry Association. We call ourselves PLASTICS for short, and 
we use that term proudly.
    Plastics were first developed by John Wesley Hyatt in the 
19th century as a synthetic replacement for billiard balls. 
Yes, that is right, billiard balls. Ivory was expensive, and 
the process of collecting it was gruesome and inhumane. So, 
Hyatt tinkered around in his lab and developed the material 
that could behave like ivory, but at a fraction of the cost, 
and at a fraction of the environmental impact. That has been 
the story of plastics from their genesis to today. It is a 
material that meets or exceeds the performance of other 
materials, and does so at a fraction of the cost, and with 
lower environmental impact.
    Since they were first developed, plastics have grown to 
make hospitals safer, surgeries less invasive, patient care 
more sterile, safer, effective, and affordable. In a century-
and-a-half since they were invented, plastics have also made 
cars, trucks, and planes more efficient, more affordable, more 
environmentally friendly, and, ultimately, safer.
    Plastic pipe brings fresh water to people and takes 
wastewater away for treatment in the most economical and 
environmentally sustainable way. Plastics have also made food 
last longer, improving health and safety to millions across the 
world.
    The plastics industry employs 993,000 people in the United 
States. The state with the largest number of plastics employees 
is California, where 79,700 men and women are directly employed 
by our industry. I can say with confidence that none of them 
got into this business in order to pollute our oceans and 
waterways. I can also say with confidence that many of them 
entered the industry with a passion to improve the safety and 
quality of a lot of people.
    That our products end up where they shouldn't upsets me. 
And I am sure every one of those nearly 1 million people who 
work in this industry feel the same way. But it is a fact. It 
is also a fact that a staggering 8 million tons of plastic ends 
up in the world's oceans each year, 90 percent of which 
originates from 10 rivers in Southeast Asia and Africa. The 
remaining 10 percent comes from elsewhere around the world. 
That is a great deal of value being wasted when these products 
end up in lakes, rivers, and, ultimately, oceans.
    Our industry agrees with everyone in this room that there 
is a plastic waste problem. The urgency of the situation cries 
out for a solution more thoughtful than simply saying ``no'' to 
a material that lowers greenhouse gas emissions, is more 
efficient to produce than other materials like metal, paper, 
and glass, and has delivered numerous benefits to society as a 
whole.
    Study after study, including one conducted recently by the 
California Water Board, has shown that banning of plastic 
products simply drives consumers to other less sustainable 
materials. Bans have a very minor impact on litter, if they 
have any impact at all.
    Plastics are used in such a diverse array of applications 
because they are the best option when all considerations are 
evaluated. In a free market society, consumers decide which 
products provide the best value and performance. In so many 
applications the chief characteristics of plastics--that is, 
their lower weight, durability, flexibility, and versatility--
constantly make them superior to other competing materials.
    Plastic bags became popular due to concerns about how many 
trees were being cut down to make paper bags. Plastic bottles 
are lighter and don't break as easily as glass ones, reducing 
product loss and shipping costs. When they are disposed of 
properly, these plastic products have a smaller environmental 
footprint than identical products made of other materials.
    Rather than trying to deny the value of plastics, we need 
to head in the opposite direction, and aim to preserve and 
enhance their value so that they are worth too much to waste. 
This can happen by investing in recycling and waste management 
infrastructure.
    We continue to support legislation that would provide 
grants to the Environmental Protection Agency, to state and 
local entities to improve recycling infrastructure, which is 
what we need to close the loop on these issues.
    We have also supported the Save Our Seas 2.0 Act, which 
aims to improve efforts to combat marine debris, and is 
currently seeing action in various Senate committees, with 
companion legislation having been introduced here in the House.
    The industry itself has stepped up to this challenge by 
innovating, like it always has, developing new chemistries, 
investing in new recycling and collection technologies, 
developing ways to convert plastic waste into energy, and 
creating the supply to meet the demand for recycled plastic 
content. Still, we need the support of Federal, state, and 
local authorities to ensure that no American has to wonder if 
the bottle they toss into the blue bin will end up being 
recycled, or if it will end up as landfill fodder.
    Perhaps I should sum up our industry's position with a 
recent quote from Japan's Prime Minister, Shinzo Abe: ``We 
shouldn't treat plastic as an enemy, nor ostracize those who 
use it. What is needed is appropriate management of trash, and 
to search for solutions through innovation.''
    On a personal note, I love this industry. I have worked for 
it for nearly 40 years. I sincerely believe that plastics are 
among humankind's greatest innovations, and that they have 
delivered an enormous benefit to public health and commerce all 
over the world. We need to learn how to live with these 
materials, because I can assure you we would never want to have 
to live without them.
    Thank you, and I look forward to your questions.

    [The prepared statement of Mr. Radoszewski follows:]
  Prepared Statement of Tony Radoszewski, President and CEO, Plastics 
                          Industry Association
    Good afternoon Mr. Chairman, the Ranking Member and members of the 
Subcommittee. Thank you for having me here to speak today.
    My name is Tony Radoszewski and I am the president and CEO of the 
Plastics Industry Association. We call ourselves PLASTICS for short, 
and we use that term proudly.
    Founded in 1937, we're the only association that supports the 
entire plastics supply chain, and we have a track record of fostering 
collaboration between each segment of the industry.
    We believe in working to make our members and the industry more 
globally competitive. We believe in advancing sustainability and being 
a good steward of resources. We believe in promoting plastics 
manufacturing as a viable career option.
    We provide education to the industry and to the public about 
plastics. We support technology-driven innovation to solve problems. We 
work to change the public's perceptions about plastics and show how 
they impact our lives for the better. We understand what's important to 
our members' business and we advocate on their behalf to enact 
sustainable policies and create sustainable business growth for the 
industry.
    Our councils, committees and events such as our signature global 
tradeshow NPE, bring the boldest and brightest innovators, influencers 
and new technologies together to create connections, expand business 
growth and showcase our industry.
    We're dedicated to helping our members shape the future and make a 
positive impact every day.
    Plastics themselves were first developed by John Wesley Hyatt in 
the 19th century as a synthetic replacement for ivory in billiard 
balls.
    Ivory was expensive and the process of collecting it was gruesome 
and inhumane. So, Hyatt tinkered around in his lab and developed a 
material that could behave like ivory but at a fraction of the cost and 
a fraction of the environmental impact.
    That's the been the story of plastics from their genesis to today; 
it's a material that does what other materials can't and does so at a 
fraction of the cost and a fraction of the environmental impact of 
other materials.
    Since they were first developed, plastics have grown to make 
hospitals safer, surgeries less invasive, patient care more sterile and 
effective and affordable--they do things in the medical realm that 
could scarcely have been dreamt of by the original innovators and 
creators of this material: stents, prostheses, bandages, replacement 
hips, shoulder sockets, knees, antimicrobial surfaces, dissolvable 
sutures, syringes, pill bottles, contact lenses and on and on and on.
    In the century and a half since they were invented, plastics have 
also made cars, trucks and planes more efficient, more affordable, more 
environmentally friendly and safer.
    In the United States and around the world, plastic pipe brings 
fresh water to people and takes wastewater away for treatment in the 
most economical and environmentally sustainable way. In developing 
countries, this one aspect has significantly improved the health and 
viability of millions of people.
    And a similar story takes place in food packaging. Plastics make 
food last longer and enabled it to travel farther to help feed those 
most desperately in need of assistance. Again, peoples' quality of 
life, especially in developing countries, is dramatically improved due 
to the use of plastics.
    Why would anyone want to ban such a material?
    The plastics industry employs 993,000 people in the United States. 
The state with the largest number of plastics employees is California, 
where 79,700 men and women are directly employed by our industry. I can 
say with confidence that none of them got into this business in order 
to pollute our oceans and waterways.
    That our products end up where they shouldn't upsets me and every 
one of those nearly 1 million people who not only rely on this industry 
to make a living, but innovate with passion.
    But it is a fact. It is a fact that a staggering 8 million tons of 
plastics ends up in the world's oceans each year--90 percent of which 
originates from 10 rivers in southeast Asia and Africa. The remaining 
10 percent comes from elsewhere around the world. There's a great deal 
of value being flushed down the drain when these products end up in 
lakes, rivers and ultimately oceans.
    Our industry agrees that there is a plastic waste problem. But the 
urgency of the situation cries out for a solution more thoughtful than 
simply saying no to a material that lowers greenhouse gas emissions, is 
more efficient to produce than other materials like metal, paper and 
glass, and has delivered numerous benefits to society as a whole.
    Study after study--including one conducted recently by the 
California water board--has shown that banning a plastic product simply 
drives consumers to other less sustainable materials. Bans have a very 
minor impact on litter, if they have any impact at all.

    Take plastic bags, for instance.

    Plastic bags make up extremely small percentages of the waste and 
litter streams, which is why banning them doesn't have much of an 
impact. According to the EPA, they make up 0.3 percent of municipal 
solid waste and they typically make up less than 1 percent of litter 
(branded plastic retail bags made up 0.8 percent of litter in New 
Jersey, for example).
    Alternatives to plastic bags are also often worse for the 
environment. Paper, woven polypropylene, and cotton/canvas bags all 
have a higher carbon footprint than traditional plastic bags. The UK, 
Denmark, and Quebec governments all did studies on this and came to a 
similar conclusion--plastic bags are the best environmental option at 
the checkout counter.
    California's plastic bag ban led to an increase in carbon emissions 
due to increased paper bag usage as well as skyrocketing trash bag 
sales, which use more plastic (see NPR article and the study). Overall, 
if you ban plastic bags, you will see fewer of them around. But 
consumers will switch to options that have a much higher carbon 
footprint, and litter and waste won't be meaningfully changed for the 
better.
    This is true for bags but also for product bans in general. As an 
example, McDonalds in the United Kingdom and Ireland banned plastic 
straws and replaced them with paper ones. The company recently was 
forced to admit that the new paper straws weren't recyclable. Many 
consumers also don't like paper straws either. As mentioned before, 
banning a product drives consumers to use other less sustainable and 
less functional options while having a negative economic impact on the 
industry and its workers.

    Plastics and plastic products exist for a reason.

    They're used in such a diverse array of applications because they 
are the best option when all considerations are evaluated. In a free 
market society like we enjoy here in the United States, the marketplace 
is driven by consumer demand, which determines which products provide 
the best value and performance. In so many applications, the chief 
characteristics of plastics--that is, their lower weight, durability, 
flexibility and versatility--constantly make them superior to other 
competing materials.
    Even products that we encounter here in the United States in our 
day-to-day lives solve problems. Plastic bags became popular due to 
concerns about how many trees we were cutting down to make paper bags. 
Plastic bottles are lighter and don't break as easily as glass ones, 
reducing product loss and shipping costs. When they're disposed of 
properly, these plastic products have a smaller environmental footprint 
than identical products made of other materials.
    Rather than trying to deny the value of plastics, we need to head 
in the opposite direction and aim to preserve and enhance their value 
so that they're worth too much to waste. This can happen by investing 
in recycling and waste management infrastructure.
    We continue to support legislation that would provide grants 
through the Environmental Protection Agency to state and local entities 
to improve recycling infrastructure--which is what we need to close the 
loop on these issues.
    This could be as simple as an education program on recycling in a 
particular community to the provision of new optical sorting equipment 
within existing Materials Recovery Facilities (MRFs). Simply put, we 
need to improve the collection of materials as one way of keeping it 
from becoming waste in a landfill, or litter in the ocean or along the 
side of the road. We believe having a reliable, steady supply of 
recovered material will encourage companies to use more recycled 
content.
    Making it easier for consumers to recycle is a major factor in 
keeping our products out of the water and other environments where they 
do not belong. We would certainly support efforts to raise awareness on 
the impact of littering and better waste management practices. But this 
should not be the only tool deployed to address this challenge. The 
industry supports voluntary, industry-led or public-private initiatives 
designed to increase the recovery of plastic materials that meet the 
standards of Sustainable Materials Management (SMM) analysis. Such 
initiatives could include programs aimed at increasing the use of post-
consumer recycled material or bioplastics, as long as the industry has 
been involved in the creation of such initiatives, and they can be 
supported by economic analysis, adequate supply and transition time and 
remain consistent with other regulatory requirements pertaining to the 
manufacture and use of the product, such as food packaging safety 
rules.
    Additionally, any potential language that imposes a fee on 
containers or packaging should apply to all materials--not just 
plastic--as all materials are found in the waste stream.
    PLASTICS advocates for the use of SMM as a guiding policy 
principle--one that considers the entire ecosystem of the product and 
prioritizes the use of materials and processes that consider total 
energy and resource inputs throughout the entire life cycle of a 
product and minimizes associated waste. SMM's holistic approach 
achieves this goal by using metrics like greenhouse gas emissions, 
water usage and transportation efficiencies for different materials, 
and comparing their advantages while meeting economic, social and 
environmental requirements. With that in mind we would caution against 
any product ban that does not consider the implications of what would 
replace that product. In many cases, what is broadly considered a 
``single-use'' plastic product is the more environmentally sound choice 
when considering the manufacturing process, shipping and recyclability 
over the life of the product. Shortsighted bans would only create more 
problems without proper, detailed analysis.
    We've also supported the Save Our Seas 2.0 Act which aims to 
improve efforts to combat marine debris and is currently seeing action 
in various Senate committees with companion legislation having been 
introduced here in the House.
    Save Our Seas 2.0 is an important, bipartisan step forward to 
address the critical issue of marine waste and its impact on the 
environment. The legislation will build upon the progress the industry 
is making to address marine debris across the world. New proposals like 
the Marine Debris Response Trust Fund, as well as more research to 
understand the root causes of this global issue and Federal support for 
improving water and waste management infrastructure are all critical to 
any effort to comprehensively address the threat marine debris poses to 
our oceans and waterways.
    The industry itself has stepped up to the plastic waste challenge 
by innovating like it always has--developing new chemistries, investing 
in new recycling and collection technologies, developing ways to 
convert plastic waste into energy and creating the supply to meet the 
demand for recycled plastic content.
    In addition to finding new ways to increase the effectiveness of 
traditional recycling--typically a curbside pickup program or local 
drop off--the industry has explored advanced recycling through the use 
of new additives like compatibilizers that help incompatible resins 
chemically bond, and property enhancers that improve the strength, 
quality and ultimately value of recycled materials.
    The industry is also building on processes like chemical recycling, 
pyrolysis and gasification. Each of these processes are used to turn 
plastic polymers back into individual monomers--allowing materials to 
be reused in a variety of ways. In these processes, the chemical 
building blocks that make up the recycled plastic are recovered. The 
fundamental building blocks can in some cases be re-polymerized 
endlessly, giving them the qualities of brand-new, or virgin, resin. 
The transformation can occur through a variety of processes, all of 
which avoid combustion, or burning, of plastics.

    Chemical recycling is any process by which a polymer is chemically 
reduced to its original monomer form so that it can eventually be 
processed (re-polymerized) and remade into new plastic materials that 
go on to be new plastic products. Chemical recycling helps us overcome 
the limits of traditional recycling. It also helps manufacturers 
continue to push the boundaries of how, and where, recycled plastics 
can be used. Chemical recycling has long been used for nylons, and the 
industry is working to make it possible for other resin types.

    Pyrolysis, sometimes called ``plastics to fuel,'' turns non-
recycled plastics from municipal solid waste (garbage) into a synthetic 
crude oil that can be refined into diesel fuel, gasoline, heating oil 
or waxes. Using pyrolysis to convert non-recycled plastics into ultra-
low sulfur diesel (ULSD) fuel reduces greenhouse gas emissions by 14 
percent and water consumption by 58 percent, and it saves up to 96 
percent in traditional energy use as opposed to ULSD from conventional 
crude oil.

    Gasification turns non-recycled materials from municipal solid 
waste (garbage) into a synthesis gas, or ``syngas,'' which can be used 
for electric power generation or converted into fuel or chemical 
feedstocks, such as ethanol and methanol, some of which can also be 
used to make new plastics that go into consumer products.

    Numerous companies are already engaged in these processes across 
the country:

    Agilyx, an alternative energy company, recycles polystyrene (which 
most people know as Styrofoam<SUP>TM</SUP>) into high-value 
petrochemicals. Agilyx's polystyrene recycling process creates like-new 
materials while generating fewer greenhouse gases than manufacturing 
does.

    Shaw Industries Group uses chemical recycling for nylon and 
polyester fiber in carpets. The company has invested more than $20 
million to convert products that were once seen as waste into valuable 
resources. They reclaimed and recycled more than 800 million pounds of 
carpet from 2006 to 2015.

    Resinate Materials Group collects chemicals from plastic materials 
and works to promote the practical and economical value of chemically 
recycled plastics. The company has found several high-value 
applications for the chemicals harvested from recycled medical 
plastics. It uses certain types of recycled packaging to create 
coatings, adhesives and sealants.

    Patagonia, an outdoor clothing brand, chemically recycles non-
wearable Capilene polyester and fleece products. Today, the brand 
features a collection of products made completely from recycled 
materials. Patagonia's chemical recycling process uses 76 percent less 
energy than the process used to make new polyester.

    Beyond that, the industry continues to expand its energy recovery 
capacity, which enables companies to convert post-use, non-recyclable 
plastics into a range of useful products such as fuels and electricity. 
Unfortunately, there are still some items that we can't recycle at this 
time and these items are typically sent to landfills.
    Energy recovery technologies are changing that. They complement 
recycling to add a new dimension to the solid waste management toolkit.
    It all starts with waste. Municipal solid waste is an underutilized 
resource of energy that can boost energy security, reduce landfill 
waste and lower greenhouse gas emissions. Energy recovery is a powerful 
process that has the potential to change the way we fuel the world. If 
all the non-recycled plastics in municipal solid waste were converted 
to oil instead of landfilled, these plastics could power up to 9 
million cars per year.
    When it comes to traditional recycling, companies are making big 
investments and commitments to collect more material and find new uses 
for it.

    For instance, here are a few recent examples of companies investing 
in expanding recycling:

    <bullet> GDB International is making ``sizable investments'' in New 
            Jersey and Ohio to pelletize plastics that were previously 
            being sent to China.

    <bullet> PureCycle Technologies is building $120 million 
            polypropylene recycling facility in Ohio.

    <bullet> East Terra built a new facility in Indiana.

    <bullet> Merlin Plastics in British Columbia and Peninsula Plastics 
            in California have made significant investments in mixed 
            plastics recycling for the West Coast.

    <bullet> Azek invested in 100-million-pounds per year processing 
            line for PE films in Illinois.

    <bullet> Green Tech Solution plans to invest $75 million in a new 
            plastics and metals recycling facility in Blacksburg, South 
            Carolina.

    <bullet> The Carton Council invested in artificial intelligence and 
            robotics to help MRFs sort recycled materials more 
            efficiently in Colorado, Minnesota and Florida.

    That's just an example list. Additionally, we are seeing major 
shifts in the behaviors of plastics material suppliers who are forming 
strategic relationships with recyclers and brands. Again, some 
examples:

    <bullet> Indorama entered a joint venture with Loop Industries for 
            PET monomers from chemical recycling.

    <bullet> Americas Styrenics has an off-take agreement with Agilyx 
            for styrene monomer from chemical recycling. This joint 
            venture is now call Regenyx and is moving quickly to 
            commercial scale operations.

    <bullet> LyondellBasell entered an agreement with Suez to jointly 
            own QCP. This joint venture leverages the two partners' 
            strengths and provides a platform for growth.

    <bullet> Pepsi signed a multi-year supply agreement with Loop 
            Industries.

    <bullet> BP has an off-take agreement for oil produced by RES 
            Polyflow from their pyrolysis system.

    <bullet> A partnership was announced between the ReVital Polymers 
            startup Pyrowave, and global plastics producer INEOS 
            Styrolution to recycled polystyrene packaging.

    The plastics industry is changing the ecology of how plastics are 
made and the supply chains that create them.
    Brand Owners are also making unprecedented commitments to using 
recycled content. Those growing commitments are being tracked in the 
Sustainable Packaging Coalition's Goals database.
    There is not currently sufficient quantity and quality of material 
in the market today to meet the 2025 goals that have been set by big 
name companies. New investments will help meet that demand, but we must 
find a way to grow the supply of material available to feed the growing 
domestic recycling market--namely by implementing legislation that 
helps accomplish this goal.
    The U.S. plastics recycling industry is undoubtedly in a period of 
transition, but it is certainly not dead. As a result of some of the 
challenges facing this sector, the U.S. domestic processing capability 
and capacity are growing more and more robust and able to handle more. 
The industry believes we must focus on how to improve our collection 
and recovery systems to expand recovery opportunities for more plastic 
products--while also creating new supplies of recycled plastics to feed 
domestic investments.
    As an organization, PLASTICS has taken a leading role in promoting 
the aforementioned investments, commitments and technologies and 
exploring other ways to combat marine debris and deliver solutions to 
the end-users of our products.
    PLASTICS leads the Pacific Northwest Secondary Sorting 
Demonstration project--a 60-day recycling demonstration that involves 
installing a portable secondary sorting system where selected materials 
from four regional MRFs will be further sorted. This innovation will 
help create six additional streams of recyclables which will reduce 
waste going to landfills or adversely affecting our environment.
    Our Transportation and Industrial Plastics (TIP) Committee 
participates in the End-of-Life Vehicle (ELV) Recycling Project. 
Launched in 2015, the ELV project aims to demonstrate the viability of 
collection and recycling of auto plastics from ELVs and build a basic 
recovery model, beginning with thermoplastic polyolefin (TPO), which 
can be eventually expanded upon to include a broader range of resins 
and parts. To date, a variety of testing has been conducted on TPO 
recovered from bumpers and initial evaluation suggests there could be 
strong demand for the recycled TPO if the right end markets are 
identified. Through collaboration with various other association and 
member companies, PLASTICS works to prove out those end markets, 
creating new opportunity for auto recyclers to generate revenue.
    PLASTICS' Flexible Film and Bag Division launched the New End 
Market Opportunities (NEMO) for Film Project in 2017, which aims to 
develop a reliable source of materials for companies that can use 
recycled plastic bags, wraps and films in their products.
    We're also a part of the Materials Recovery for the Future (MRFF) 
project which aims to make it easier for MRFs around the country to 
empower their communities with the ability to recycle flexible 
packaging--again, bags and wraps but also punches and other packages--
in their normal recycling stream and curbside.
    PLASTICS also offers a number of tools and resources to companies 
in the industry that they can use to make their own operations more 
sustainable:
    We help educate companies on how they can turn their waste into 
valuable resources, or eliminate waste altogether using the tools 
offered through PLASTICS' Zero Net Waste program. Through this program 
manufacturers learn how to maximize diversion--achieving in some cases 
90 percent recycling rates and even 100 percent recovery rates--engage 
employees in environmental efforts and avoid landfill costs and 
generate revenue by recycling.
    Since the 1980s, PLASTICS and the American Chemistry Council (ACC) 
have jointly operated Operation Clean Sweep (OCS), an international 
stewardship program designed to prevent resin pellet, flake and powder 
loss and help keep this material out of the marine environment.
    More recently we've hosted a series of presentations for the 
industry focused on advancing sustainability, specifically on subjects 
like energy reduction through the Better Plants Program, zero net 
waste, sustainability 101 for new professionals, water reduction, 
benchmarking, transportation efficiency and calculating economic 
impacts.
    Despite all these efforts, we still need the support of Federal, 
state and local authorities and new legislative solutions to ensure 
that no American has to wonder if the water bottle they toss in the 
blue bin will end up being recycled or if it will end up as landfill 
fodder.
    Perhaps I could sum up our industry's position with a recent quote 
from Japan's Prime Minister Shinzo Abe: ``We shouldn't treat plastic as 
an enemy, nor ostracize those who use it. What's needed is appropriate 
management of trash and to search for solutions through innovation.''
    Plastics are among humankind's greatest innovations and they've 
delivered an enormous benefit to public health and commerce all over 
the world. We need to learn how to live with these materials, because I 
can assure you, we would never want to have to live without them.

    Thank you.

                                 ______
                                 

   Questions Submitted for the Record by Rep. McClintock to Mr. Tony 
               Radoszewski, Plastics Industry Association
    Question 1. During the hearing the topic of green house gas 
emission, as it relates to plastic products, was brought up on several 
occasions. Can plastics play a role in reducing green house gas 
emissions?

    Answer. Thank you for the follow-up question regarding plastics' 
impact on greenhouse gas emissions. To put it simply, plastics reduce 
greenhouse gasses when compared to currently available alternative 
materials. As I mentioned the day of the hearing, plastics would be 
replaced with less sustainable options if bans on plastics were 
implemented. Life cycle analyses continuously show how plastics is the 
better choice to reduce greenhouse gas. Whether that is by light-
weighting vehicles which increases fuel mileage and decreases 
emissions, or the fact that paper, woven polypropylene and cotton/
canvas bags all have a higher carbon footprint than traditional plastic 
bags. I could go on, but I will let the science speak for itself. I've 
included several studies that illustrate what I am referencing. It 
cannot be overstated: plastic as a material improves the overall 
picture as it relates to greenhouse gasses when looking at the full 
life cycle of a product.
    Plastics' lighter weight minimizes their environmental footprint by 
decreasing production of waste, energy use and carbon emissions through 
the full life cycle of the product. Beyond energy savings and water 
conservation, plastics help preserve the shelf-life of food, thereby 
preventing food waste, a huge problem worldwide. According to the EPA, 
most uneaten food decays in landfills, where it accounts for 34 percent 
of U.S. methane emissions (methane is a powerful greenhouse gas that is 
21 times more harmful to the environment than CO2.\1\)
---------------------------------------------------------------------------
    \1\ https://www.scientificamerican.com/article/earth-talk-waste-
land/.
---------------------------------------------------------------------------
    Many people think glass bottles are ``greener'' than plastic. But 
glass bottles require 46 percent more greenhouse gases and 55 percent 
more energy to produce than plastic bottles do.\2\
---------------------------------------------------------------------------
    \2\ https://posterng.netkey.at/esr/viewing/
index.php?module=viewing_poster&doi=10.1594/ecr2015/C-2599.
---------------------------------------------------------------------------
    The American Chemistry Council (ACC) released several studies 
showing the positive impact plastics can have versus alternatives. In 
particular, a Franklin Associates studies, ``Life Cycle Impacts of 
Plastic Packaging Compared to Substitutes in the United States and 
Canada'' from April 2018 \3\ and ``Life Cycle Inventory of Packaging 
Options for Shipment of Retail Mail-Order Soft Goods'' from April 2004, 
pgs. ES15-17.\4\
---------------------------------------------------------------------------
    \3\ https://plastics.americanchemistry.com/Reports-and-
Publications/LCA-of-Plastic-Packaging-Compared-to-Substitutes.pdf.
    \4\ https://www.oregon.gov/deq/FilterDocs/LifeCycleInventory.pdf.
---------------------------------------------------------------------------
    Additionally, a study by Trucost estimates that substitution of 
plastic components with alternative materials in passenger vehicles 
sold in North America in 2015 would lead to an increase in lifetime 
fuel demand for those vehicles of over 336 million liters (89 million 
gallons) of gasoline and diesel, and at an environmental cost of $2.3 
billion. This equates to an environmental cost increase of $169 per 
gasoline or diesel passenger car sold in North America in 2015. As 
another example, improved skin-type plastic packaging for sirloin steak 
can cut food waste by almost half compared to conventional plastic 
packaging (34 percent waste to 18 percent waste) with environmental 
savings of $606 per metric ton of beef sirloin sold. This equates to 
environmental savings of over $2.2 million for every additional 1 
percent of sirloin steak sold in improved packaging in the USA. This 
case study illustrates the significant environmental net benefits that 
plastic food packaging can deliver where it helps to avoid the waste of 
resource intensive food products.\5\
---------------------------------------------------------------------------
    \5\ https://plastics.americanchemistry.com/Plastics-and-
Sustainability.pdf.
---------------------------------------------------------------------------
    On a national level, to substitute the 14.4 million metric tonnes 
of plastic packaging in the six packaging categories analyzed in one 
study, more than 64 million metric tonnes of other types of packaging 
would be required. The substitute packaging would require 80 percent 
more cumulative energy demand and result in 130 percent more global 
warming potential impacts, expressed as CO<INF>2</INF> equivalents, 
compared to the equivalent plastic packaging.\6\
---------------------------------------------------------------------------
    \6\ https://plastics.americanchemistry.com/Education-Resources/
Publications/Impact-of-Plastics-Packaging.pdf.
---------------------------------------------------------------------------
    A study by Denkstatt which looked at the impact of plastic 
packaging on life cycle energy consumption and greenhouse gas emissions 
in Europe showed that substituting plastic packaging with other 
materials would on average increase the respective packaging mass by a 
factor 3.6. The study also showed life cycle energy demand would 
increase by a factor 2.2 or by 1,240 million GJ per year, which is 
equivalent of 27 Mt of crude oil in 106 VLCC tankers or comparable to 
20 million heated homes.
    Additionally, greenhouse gas emissions would increase by a factor 
2.7 or by 61 million tonnes of CO<INF>2</INF>-equivalents per year, 
comparable to 21 million cars on the road or equivalent to the 
CO<INF>2</INF>-emissions of Denmark.\7\
---------------------------------------------------------------------------
    \7\ https://denkstatt.eu/download/1994/.
---------------------------------------------------------------------------
    It is our conclusion that plastic is the best overall material to 
use for a variety of reasons and these studies show over and over again 
sustainability is a success story of our material.

    Thank you again for the opportunity to testify and for your follow-
up question.

                                 ______
                                 

    Dr. Lowenthal. Thank you for your testimony, Mr. 
Radoszewski.
    I am going to remind the members of the Committee that Rule 
3(d) imposes a 5-minute limit on questions. And now, the 
Chairman is going to recognize Members for any questions they 
may wish to ask members of the panel or the witnesses.
    I am going to recognize myself for 5 minutes of questions. 
My first question goes to Dr. Jambeck.
    I want to follow up on something you have said, but also 
something that the Ranking Member spoke about in his 
introduction, where he said there is no real problem here in 
the United States, the real amount of plastics in the ocean 
really come from other countries, Asian countries and African 
countries.
    So, Dr. Jambeck, in your work, how much of the waste is 
entering the oceans from China, Vietnam, and other southeastern 
Asia countries. Can you tell us, is this the real picture of 
the origins of the waste?
    Can you tell us more about the full impact of the United 
States' role in contributing to oceans debris and plastic 
waste?
    And has that been partially hidden by our reliance on 
exporting our waste primarily to Asia?
    Can you respond to that? That is really how it was framed.
    Dr. Jambeck. Yes. That is a big question.
    But, certainly, when we first did those calculations of the 
global impact of plastic into the ocean, we couldn't take into 
account that import-export aspect. So, what we did see were 
these influencing factors--really rapidly developing economies, 
where infrastructure to manage the waste that comes with the 
increased waste generation, that comes with economic growth, 
that infrastructure was lagging behind.
    The areas that have been referred to here, so many of those 
rapidly developing economies, is where we saw the most leakage. 
But as I mentioned in my testimony, our per-person waste 
generation rate is two to six times that within the United 
States. And if we look at leakage as a percentage of what we 
generate, the reason the United States is the only high-income 
country within the top 20 countries within that original paper 
is because of our waste generation rates.
    So, in terms of a contribution to the global plastic 
quantity of waste, the 6.4 million that I mentioned--or 
billion, excuse me--we are a major contributor.
    So, what has become an issue that started in the 1990s, in 
terms of our single stream recycling, to make it easier we can 
put everything in one bin. That meant our commodities, as well 
as the WTO encouraging global trade, and China needing material 
for manufacturing, becoming the manufacturing hub of the world, 
that set up this rapid increase in exporting of our recycled 
materials. And for me, we looked at recycled plastic. Over half 
of that had been going to China until they stopped that in the 
end of 2017, which caused a cascade impact on our recycle 
industry within the United States itself. So, that has been a 
major problem, because we were relying on lower-income 
countries to manage that material, in many cases with China 
having trouble managing their own, and then us exporting on top 
of that. That contributes to pollution in those countries, as 
well.
    So, it is very interconnected and complex, but I hope that 
clarifies some.
    Dr. Lowenthal. Thank you. I want to talk a little, raise 
some questions about--we know about the waste and plastics, and 
how much going into the ocean. But the question is how does 
this impact species?
    The first question is, we have just seen the IPBES--I hope 
that I pronounced it right--report that was released earlier 
this year that included plastic pollution as a threat to marine 
biodiversity. So, it is seen as a threat.
    My first question is, Mr. Danson, do you know if plastic is 
affecting species that are in danger of extinction?
    We are trying to understand not only how it gets into the 
ocean, but what some of the impacts are.
    Mr. Danson. Some of the impacts. Turtles, every species of 
turtle, is either on the endangered species list or close to 
it. And every species of turtle has ingested plastic. Plastic 
doesn't go away completely. It just breaks down into smaller 
and smaller pieces, so a turtle or a sea mammal or another fish 
may ingest that plastic. They think that they are full, because 
their stomachs are full of plastic, so they stop eating and 
they starve to death.
    Albatross end up dipping into what they think is some sort 
of something they like to eat in the water, but it is plastic. 
Then they feed it to their child, their little bird, and the 
bird dies for the same reason; they starve to death.
    So, yes, it is having an impact on whales, on many species.
    Dr. Lowenthal. Thank you. I think my time has been up, so I 
am going to yield. I will now call upon Representative Graves, 
who looked very good sitting on the Democratic side there for a 
while, and we welcome him back.
    [Laughter.]
    Mr. Graves. Thank you, Mr. Chairman. I have recruited a 
number of your Members to come to our side.
    Dr. Lowenthal. Are you coming to my district this weekend?
    Mr. Graves. I look forward to it. And I want to make note--
Mr. Lowenthal and I, I was arguing with him awhile back and I 
said, you need to come see the people that I represent, the 
communities that I represent, so you understand why I say the 
things that I do, and why I vote the way that I do. And to his 
credit, he came down and spent 3 days in Louisiana. And I put 
him on a boat, an airboat. We put you on an airplane or a 
helicopter, maybe, took him all over the place, made him eat 
crawfish, all sorts of things--plastic-free crawfish.
    So, I do want to thank you, and I am looking forward to 
going over to your part of the country----
    Dr. Lowenthal. It is going to be great.
    Mr. Graves [continuing]. To see if we can talk some wisdom 
into those people.
    [Laughter.]
    Dr. Lowenthal. But now you have to ask questions. Now you 
have 5 minutes. Thank you.
    Mr. Graves. No, seriously, thank you very much.
    Dr. Lowenthal. Thank you.
    Mr. Graves. I appreciate the friendship and I am looking 
forward to the opportunity to meet with some of your 
constituents.
    Thank you all very much for being here. And I want to be 
clear that I very much appreciate all of your efforts to remove 
plastic from the waste stream, a goal that I very much share. I 
represent part of the coast of Louisiana, and one of the top 
commercial and recreational fishing destinations and producers 
in the United States. And not just fishing for fun, but for 
subsistence, and a really important part of our culture, 
community economy in south Louisiana.
    Look, we can talk end game for a minute, but I am curious. 
There is a huge part of the waste stream that exists right now. 
You have plastic in the oceans. You have plastic that is 
somewhere in the recycle chain, as we know, with what China has 
done.
    What do we do right now, just putting the long-term aside, 
looking at the incredible waste streams that are in the ocean--
and I am well aware and supportive of some of the legislation 
that we have pushed out of the House to deal with that. But 
what do we do with the current waste stream of plastic?
    The current waste stream that is supposed to be recycled, 
but with a China ban has created some problems with where it 
goes, what do we do with the plastic that is in the ocean?
    If you were king for the day, could make any decision, what 
would you do?
    Mr. Danson, I would like to ask all of your opinions.
    Mr. Danson. I would reduce single-use plastic. It is 
designed to live forever, and yet you use it once and throw it 
away. You take the easy things like that, that aren't really 
necessary----
    Mr. Graves. Can I just clarify my question, though?
    My point, though, is you have plastic that has already been 
singularly used, and so it is already somewhere in the waste 
stream. Whether it is in our oceans, it is somewhere in the 
shipping or somewhere, where it is going to be recycled, but it 
is somewhere in the waste stream already. How do we handle that 
waste stream?
    Mr. Danson. I am not sure. If it is in the ocean, I am not 
sure you can. It is like oil. Once it is in the water column, 
you are not going to get it out. You may be able to scoop some 
of the obvious bigger pieces out. You can do beach cleanup, and 
all of that. But really, compared to the amount of plastic that 
is about to be produced in the next 20, 30 years, it is going 
to be scaled up. You just can't compete with the amount of 
plastic production by recycling and picking up on the beaches.
    Mr. Graves. Thank you. Mr. Parras?
    Mr. Parras. What I see in our neighborhoods and communities 
all over the country is that plastic, it is actually made to be 
disposable, it seems like. It is affordable because it is 
plastic, so what happens is that people just don't consider it 
as trash, or as valuable, so they get rid of it. And until we 
start actually either charging more for the production of 
plastic so that we can have major cleanups, that may help.
    Mr. Graves. Thank you. Dr. Jambeck--and I just want to re-
emphasize I am talking about the existing load that is there. I 
am interested to hear--our last witness talked a little bit 
about some of the technologies moving forward, but please.
    Dr. Jambeck. Sure, so quickly, what is already in 
existence, probably the easiest thing to grab are nets, 
something that your area is well familiar with, and they are 
one of the materials, typically nylon, very valuable, and could 
be recycled.
    The problem with what already exists is the diversity of 
plastic that is there, the challenges with recycling that. Most 
of it is getting landfilled here in the United States, so that 
is not the best thing. We wish that more of it could be 
recycled.
    Mr. Graves. Thank you.
    Mr. Radoszewski. Thank you. Today, our industry, the four 
value components of our value chain, from the resin 
manufacturers, the machinery manufacturers, processors, and end 
users are all actively engaged in recycling and re-use of these 
products, ranging from sorting to the plastics that are most 
predominately used in recycling, PET and high-density 
polyethylene, and then also developing technologies that can 
sort out the other materials and develop enough of a waste 
stream so that they can be used in applications.
    The other technologies that are being used right now are 
chemical recycling, in which we can take the products back to 
their basic form, re-polymerize it, and use it again in food 
contact packaging, where before, if it is recycled, we can't 
use it in food packaging. So, these are technologies that we 
are actively involved in right now.
    Mr. Graves. Thank you.
    I yield back.
    Dr. Lowenthal. Thank you. I now recognize Representative 
Case for 5 minutes.
    Mr. Case. Thank you, Chair. The Ranking Member asked two, I 
think, good questions.
    The first is that he asked what exactly is the problem, and 
the second question that he asked was why should Americans take 
the blame for the excesses of the rest of the world. Those are 
two good questions in this debate.
    As to the first question, I will give a couple of examples 
from my perspective. In the state of Hawaii, we have the 
largest marine monument in our country, Papahanaumokuakea 
National Marine Monument. And there we get somewhere around 52 
metric tons of marine debris, almost all ghost fishing gear, 
every year. Every year.
    Now, why is that a problem? Well, it wrecks coral reefs, 
which are endangered around the world, and it degrades into 
smaller parcels, which then are ingested by our marine life. We 
have 1,400 Hawaiian monk seals left in the entire world, and 
declining. They get entrapped in this debris and die. That 
species is highly endangered. We have invasive species from 
elsewhere in the world hitching a ride on ghost fishing gear to 
Hawaii, the endangered species capital of the world, where we 
cannot take that kind of external impact.
    We have in Hawaii--I went, on the first World Reef Day on 
June 1 of this year, to the north shore of Oahu to a beach in 
Kahuku, where I tried to clean up a coastline with Sustainable 
Coastlines Hawaii, one of many grassroots organizations across 
our country trying to do something about it on a micro level. A 
beach that I used to walk on that was pretty white is now all 
different colors: green, yellow, red. Very small particles of 
plastics not degraded, but down into the level of ingestion at 
the very lowest levels of marine life. Now, that is what the 
problem is.
    As to the Ranking Member's second question, why should we 
take the hit when the rest of the world isn't doing anything 
about it. I think that is a really legitimate question, because 
it reminds me greatly of the debate over climate change, where, 
essentially, the same question is posed: Why should we reduce 
our emissions when the rest of the world is not doing that?
    And that leads us to international agreements, as what I 
can see as being one of the only ways to get at this problem 
from an international perspective.
    So, Mr. Danson, does Oceana partner with international 
organizations toward an international solution to plastics in 
the ocean, given that it does put us at a disadvantage for us 
to unilaterally curb our plastics use from several 
perspectives, and yet we need to do it. Cities and counties and 
states throughout the country are doing that. The City of 
Honolulu is doing it right now. Are you partnering with the 
rest of the world to try to find those international 
agreements?
    Mr. Danson. Yes, I believe we are. I think there are 
literally thousands, or at least 1,000 groups around the world 
working on plastics. This is a united effort. I can get you 
more specifics when I talk to the staff of Oceana.
    I mean, we haven't talked about climate change and 
greenhouse gases, but plastic is such a huge part of that 
story. I don't see how we cannot address our plastic, our 
greenhouse gas emissions--and if we don't do that, how we 
expect the rest of the world to follow along.
    So, yes, sorry, that is my----
    Mr. Case. OK. Thank you very much.
    Mr. Radoszewski, you stated in your testimony that you and 
your industry are supportive of Save Our Seas 2.0, which is a 
bipartisan, bicameral bill introduced in both the House and the 
Senate, and that calls for much greater studies, some 
incentives at the Federal level, but it also calls for pursuing 
international agreements that would curb plastic use, 
especially single-use plastic use around the world.
    And your testimony sounded to be inconsistent with that 
position, that part of Save Our Seas 2.0. Are you supportive of 
pursuing international agreements whereby the entire world 
would agree to a reduction in plastic use and a reduction of 
dumping of plastics into the oceans?
    Mr. Radoszewski. I would say we are involved and eagerly 
working with international organizations to find solutions to 
the problems that exist today. We are engaged with--whether it 
is the British Plastics Union, the Canadian Plastics Industry 
Association, the New Zealand Plastic Association, working in 
consortium with them to define those abilities to minimize the 
waste in the ocean, and in the land, as well.
    Mr. Case. OK. That doesn't sound like what I am talking 
about. It sounds like you are working with the rest of the 
plastics industry around the world to manage it going into the 
oceans, but not necessarily reducing it.
    Mr. Radoszewski. Reducing or reusing or recycling, there 
are a lot of different options that we are looking at. And in 
the Save Our Seas 2.0, there are many parts of it that we do 
like and other parts that we would still like to negotiate 
with.
    Mr. Case. OK, thank you.
    Dr. Lowenthal. Thank you. I now recognize the Ranking 
Member for 5 minutes of questions.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    First, I don't think Mr. Case was listening very carefully 
to what I said. I was referring specifically to properly-
disposed-of plastics, plastics put in landfills, incinerated or 
recycled, none of which gets into the ocean.
    And we know that America accounts for less than 1 percent 
of plastic marine pollution.
    So, even if we went to the extreme of banning all plastics 
in the United States, in addition to having a devastating 
effect on the economy, it would at best affect just 1 percent 
of plastic pollution in our oceans.
    But Mr. Radoszewski, Dr. Jambeck asked a very intriguing 
question. Think about how much plastic you touch every day. 
Isn't that an indication of how useful plastic has become in 
our daily lives?
    Mr. Radoszewski. Absolutely. If you look at what plastics 
have replaced in the past, whether it is glass, paper, steel, 
aluminum, the reason why there is so much plastic is it is the 
best choice in terms of many of the packaging applications that 
it finds itself----
    Mr. McClintock. Isn't her question also a warning of how 
our quality of life would decline if the left is successful in 
restricting or banning it?
    Mr. Radoszewski. Well, I would think a lot of things that 
we have taken for granted today would be gone, and the 
accessibility to those foodstuffs that give us a higher quality 
of life, not only to Americans on the East and West Coast, but 
in the middle of the country, and poorer areas, as well. The 
availability to get foods to different parts of the world 
because of lower transportation costs, and the food stays safer 
and healthier and fresher are all reasons why the quality of 
life, not only in the United States but across world, has 
increased.
    Mr. McClintock. I think Dr. Jambeck's question also begs a 
correlated question. Let's think about everything that we touch 
every single day. Everything is either mined or it is grown, is 
it not?
    Mr. Radoszewski. I would think that would be right.
    Mr. McClintock. I don't know of a single exception to that. 
And that then opens a new question, and that is, what is the 
alternative to plastics? I used the example of a toothpaste 
tube. What would be the alternative to that?
    Mr. Radoszewski. Well, I think, even in your original 
testimony, you mentioned what it used to be. And, as far as we 
know, the only thing we could do is go back to what it was. And 
that would mean glass bottles. That would mean lead, I think, 
was what was once used in toothpaste tubes, because of the 
softness of it.
    So, if you go backward, you are talking about materials 
that have a higher carbon footprint, take more energy to 
produce, usually weigh more. The transportation costs also 
increase, so you have that aspect, as well.
    Mr. McClintock. So, at this juncture in our technology and 
science and advancement of our civilization, plastics are the 
most environmentally friendly alternative that we have, if we 
are to engage in the commerce that makes our civilization 
possible, is it not?
    Mr. Radoszewski. I think that is very right. In fact, 
again, I go back to the point of--let's look at food packaging. 
The ability to get a bratwurst at any place in the country at 
any time because it is wrapped in plastic and has a foam board 
packet, which is made of styrene, makes it accessible to 
everybody. Your meat stuffs, your sausage containers for your 
breakfast patties, all those are packaged in plastics because 
they get product to the shelf economically, safely, and fresh.
    Mr. McClintock. I am curious, Mr. Danson. How are we going 
to get our toothpaste, for example? How do you propose that we 
package our toothpaste in the future? You want to ban plastic 
containers? You want to go back to metal tubes or glass jars?
    Mr. Danson. You know, I don't really know the answer to 
that.
    Mr. McClintock. Well, that is the problem, isn't it? I have 
not heard a single alternative offered by the critics of 
plastics. And I think it has become very clear that plastics we 
have found to be a far better solution, economically and 
environmentally, to the materials that we have used in the 
past.
    Mr. Radoszewski, tell me how a ban on single-use plastics 
would impact the overall economy.
    Mr. Radoszewski. I think it would be detrimental to it. It 
could have an effect of putting people out of work. I don't 
think there is a quick response to supply the demand that the 
marketplace has created for these products. So, you would have 
a shortage of goods. You would have an economic decline because 
of lack of innovation of materials that we are seeing in the 
plastics industry. There is a whole host of things that would 
be affected immediately with some of these immediate bans----
    Mr. McClintock. And what would happen to consumer prices?
    Mr. Radoszewski. They would go up. I mean it is a simple 
example of supply and demand. If the demand is not satisfied by 
the supply, the price goes up.
    Mr. McClintock. Well, our automobiles, for example, instead 
of using plastic materials, would go back to using metal 
materials. I mean, I am just looking at these nameplates right 
here. They are plastic. In a previous day, they were brass, 
much more expensive and much harder on the environment to mine. 
Is that correct?
    Mr. Radoszewski. It is. And, in fact, if you look at the 
CAFE standards, one of the reasons the automobile industry has 
been able to meet those standards over the last couple of 
decades is because of the incorporation of higher-performing 
plastics that do the same performance as metal----
    Mr. McClintock. So, once again, it is blame America first, 
let's harm the American consumer, even though the American 
consumer is responsibly disposing plastic products, and without 
any alternative. That, to me, sounds almost childlike.
    I yield back.
    Dr. Lowenthal. Thank you, Ranking Member. I now call upon 
Representative Cunningham for 5 minutes of questions.
    Mr. Cunningham. Thank you, Mr. Chairman. And thank you for 
holding this hearing today on an issue that is near and dear to 
my heart, and also our constituents in the 1st District of 
South Carolina, which stretches from Charleston all the way 
down to Hilton Head.
    This issue is certainly on the minds of South Carolinians, 
many of whom dedicate their free time to support local beach 
cleanups in an effort to preserve our beautiful, God-given 
natural resources. And I am proud to represent so many of these 
conservation leaders.
    The local Surfrider Foundation chapter in my Congressional 
District hosts beach cleanups almost every single weekend.
    And we also have Andrew Wunderley of the Charleston 
Waterkeeper, who has made it his livelihood to protect and 
restore the quality of Charleston's waterways, while fighting 
for the right to swimmable, drinkable, fishable water.
    And, today, I actually came up here from Charleston with 
some of the plastic treasures that were recently found on our 
shoreline over the weekend from the Goose Creek Reservoir, 
which is the source of the Goose Creek water supply. So, let's 
see what we have here today--and this was just found this 
weekend.
    It looks like we have a used piece of Styrofoam here. We 
have a plastic water bottle; a single-use straw; a single-use 
plastic bag, and this actually looks like it has been kind of 
shredded or nibbled on, more than likely ingested by some type 
of marine life, this is what is left of it right now; some 
other straw, a shredded straw--we have all seen the pictures of 
sea turtles ingesting these and the damage that causes; a glass 
jar; and it looks like a potato chip bag, plastic.
    And this isn't abnormal, unfortunately. This has become 
kind of the norm of what washes up on our shore lines or into 
our waterways every single weekend, and a lot of people in this 
room are aware of it.
    In fact, earlier this year NOAA published a report on the 
economic impacts of marine debris. And without objection, I 
would like to enter this report for the record.
    Not surprisingly, this report found that getting rid of 
debris from our beaches can have a significant positive impact 
on the tourism economy. That is kind of a no-brainer.
    Mr. Danson, every year the Ocean Conservancy's 
International Coastal Cleanup Report shows the most frequently 
found items on the beach. In 2017, data showed, for the first 
time, that the top 10 most commonly found items were all made 
of plastic. And that trend continued in 2018.
    So, Mr. Danson, is what you saw here today, is this typical 
of the items typically found in beach cleanups, in your 
experience?
    And how do these discoveries help shape policy?
    Mr. Danson. Well, they are all single-use plastics, which 
is something we would like to reduce. They are all very 
convenient and easy for us to use in our everyday life, but 
create incredible problems, everything from greenhouse gases to 
sea animals dying from ingesting it. That is our disposable 
lifestyle, of which I am part of. It is very hard to deal with 
that every day.
    But people are coming up with solutions. There is a 
toothpaste called Bite that now comes in a little jar that is a 
powder, and you add water. That creates jobs and money and 
taxes. So, there are alternatives that we need to find.
    It has been incredibly useful, and now it has become 
incredibly dangerous. And I think that is the argument, not 
that the left or the right has any monopoly on being smart 
about things. It is this is a problem for all of us, and we all 
need to find ways to do it. And I do believe we are capable of 
that.
    Mr. Cunningham. I appreciate it, Mr. Danson, and I 
appreciate you all being here today.
    Unfortunately, my time is coming to a close. I know there 
has been some discussion here today as far as where the United 
States is, as far as the polluting and cleanup and everything. 
But I think we should all agree that the United States of 
America is a leader, and we should lead on this issue. And no 
matter where we fall in the list of polluters, we should be 
leading by example and being more responsible, being more of 
like a Sam, instead of the Norm, if you will.
    [Laughter.]
    Mr. Cunningham. But just being out in the front on this, 
and recognizing that this is not sustainable, and we have to do 
every single thing in our power to make that come to an end.
    So, I appreciate the work you all are doing, I appreciate 
the time here today. And, with that, I would yield back.
    Dr. Lowenthal. Thank you, Mr. Cunningham. And I now 
recognize Congressman Sablan for 5 minutes of questions.
    Mr. Sablan. Thank you very much, Mr. Chairman, for holding 
today's hearing.
    In my first few months here in Congress, in my first year, 
I had this naive thought. If there was a possibility for some 
committee members to get on an airplane and fly over this 
garbage patch that is in the Pacific--now it has a new name, 
actually--it is the Great Pacific Garbage Patch, and it is 
located just a little north of Hawaii, and right next to a 
place called Micronesia.
    I come from the Northern Marianas, which is a part of 
Micronesia--called Micronesia because it is a lot of small 
islands together. And you take all of those islands together, 
all of them, and put them together, it is hardly a large part 
of this garbage patch.
    We have in the Northern Marianas, islands that are 
conservation islands--and unless you are a scientist with a 
permit, you can't get on these islands. But there have been 
scientists who have gotten permits and gotten on and found, to 
their dismay, that they had to collect bags and bags and bags 
of garbage, plastic garbage.
    I don't mean any disrespect to all of you, thank you.
    Mr. Danson, sir, thank you very much for so many wonderful 
hours of great entertainment. I enjoyed your show, ``Cheers.''
    I also noticed, among the four witnesses on the table, 
sir--Mr. Rado----
    Mr. Radoszewski. It is OK. Call me Tony. How about that?
    Mr. Sablan. OK, Tony. Among all the four witnesses, you are 
the only one with a plastic bottle of water.
    Mr. Radoszewski. Right.
    Mr. Sablan. Yes. I mean you really are for your product.
    [Laughter.]
    Mr. Radoszewski. Sir, if you would like me to comment on 
that, I----
    Mr. Sablan. No, I am not asking you for a comment, it was 
just an observation, sir. You didn't have to bring that, 
because there are glasses of water in front of you.
    But, you see, these Micronesian Islands, yes, we probably 
contributed to some of this debris. But we are not responsible 
for that debris, and that thing is floating and growing. And it 
is one day going to cover Micronesia. Micronesia is--the area 
is the size of the 48 contiguous states.
    So, what do we do about that?
    Dr. Jambeck, how much effort and resource would you think 
it would take to clean up this garbage patch?
    Dr. Jambeck. What is floating out there is only about 3 
percent of what we think is going in every year. So, it is not 
a large amount. But you are absolutely right in that what is 
floating often ends up on islands like yours that sort of 
interrupt those currents.
    To be honest, the best way to sort of get that out is if it 
is ending up on land, and then cleaning that land, like they do 
in Hawaii.
    There are folks who are trying to design systems to collect 
out in the Great Pacific Garbage Patch. But there are a lot of 
resources that go into that, and that is similar to the analogy 
of mopping up your bathroom floor while the tap is on.
    Mr. Sablan. OK. Just imagine what it would be like for 
Hawaii if that garbage gets any closer and just keeps going on 
land, because tourism is their major industry.
    I don't have an answer to the problem. I really don't. I do 
have a serious concern, because I eat a lot of fish, reef-
caught fish, and tuna caught by trawling, and everything.
    I agree that these things get into the fish, so it gets 
into what I eat, probably, most likelihood. But I don't know. I 
don't have an answer. I am not as smart as the four of you 
sitting at the witness table, but we do need to act on, get 
something going, and try to find a way to resolve this, and 
maybe find an alternative to plastic that is not going to hurt 
people's jobs, you know?
    There has to be something. We are a much better Nation than 
we think we are, than we give ourselves credit for.
    My time is up. Thank you, Mr. Chairman.
    Dr. Lowenthal. Thank you, Mr. Sablan. Next, the Chair 
recognizes Mr. Neguse for 5 minutes of questions.
    Mr. Neguse. Thank you, Mr. Chair, and thank you for hosting 
this important hearing.
    The topic of plastic in our waters and oceans cannot be 
more pressing. A study conducted by the U.S. Department of the 
Interior and the U.S. Geological Survey, aptly and alarmingly 
called ``It's Raining Plastic,'' was published in May, and 
found that plastic was found in 90 percent of rainfall samples 
in Denver and in Boulder, Colorado, which happens to be--
Boulder, in particular--the area that I represent in Congress, 
amongst many others.
    An earlier study found that people are swallowing an 
average of 5 grams of plastic every week, about the weight of a 
credit card.
    For my constituents, who are suffering from this reality 
every day, ultimately, for the people across this Nation and 
the world who are doing the same, it is imperative that we 
address this issue.
    It just so happens, Mr. Chair, quite fittingly--literally, 
1 week ago, or a week-and-a-half ago, on October 16, 2019, a 
constituent of mine--her name is Annie, she is a sophomore at 
Fort Collins Polaris Expeditionary Learning School in my 
district--wrote to me about this very issue, about the issue of 
microplastics in our world's oceans and water systems at large.
    And in her letter she said, ``I am such a small part of 
this world, but I want to do everything I can to fix this 
problem.'' I am certainly inspired by her commitment to fixing 
this problem, and am heartened by the Chairman's decision to 
host this important hearing, and my fellow Committee members in 
their attempt to address this issue collectively, and, of 
course, to the witnesses who have joined us, and to their 
testimony.
    I will confess I had a number of competing scheduling 
commitments, from both a hearing perspective as well as 
meetings, but I was watching the testimony and some of the 
exchanges on the television in our office. And there was one 
exchange in particular that was a bit interesting to me, and I 
had noticed that Mr. Danson, you didn't have an opportunity to 
really respond to the question that was being posed by the 
gentleman from California, Mr. McClintock.
    So, I would like to go back to the point that he made about 
toothpaste. In 1984, how old were you, Mr. Danson?
    [Laughter.]
    Mr. Neguse. I mean, if you are comfortable sharing it, of 
course. I don't want to----
    Mr. Danson. Tough question. I was born in 1947. Would you 
do the math for me?
    [Laughter.]
    Mr. Neguse. I am a lawyer, not a mathematician, 
unfortunately. But I believe that that would put you at, what 
34----
    Mr. Danson. Sounds right.
    Mr. Neguse. Forty-three. I think that is right.
    Dr. Lowenthal. No, 47.
    Mr. Neguse. In 1984, when you were 43, what kind of----
    Mr. Danson. Thirty-three.
    Dr. Lowenthal. Thirty-three.
    Mr. Danson. Go ahead. I am old. Go on.
    [Laughter.]
    Mr. Neguse. That is all right. I don't want to get stuck on 
your age, Mr. Danson. What kind of car were you driving back in 
the 1980s?
    Mr. Danson. The 1980s?
    Mr. Neguse. Yes.
    Mr. Danson. A Ford Explorer for a while.
    Mr. Neguse. A Ford. And I take it it probably wasn't an 
electric car, right?
    Mr. Danson. No. But I did have the first EV-1.
    Mr. Neguse. All right. And I suspect you might have been 
renting back then, or you owned a home. Did your home have 
solar panels back then?
    Mr. Danson. No, it did not.
    Mr. Neguse. No. And my point is this, the reason why I ask. 
I was born in 1984. I am 35 today. I have a daughter who is 14 
months old. And I think a lot about the world that she will 
inherit. And much of the work that we do here in this Committee 
and in this Congress is about fighting to make sure that the 
world she inherits is a better one than we did.
    The transformative changes that have happened just in the 
last 35 years since I was born have been dramatic, right? And 
you have chosen, amongst many other citizens in our country--
and, of course, several of the panelists here--to try to make a 
difference, to adopt strategies in your own life and the way in 
which you conduct yourself to be environmentally conscious and, 
of course, taking advantage of the technological capabilities 
that have also changed.
    So, this notion that we can't adapt, that removing 
microplastics--suddenly we all will be amiss--with the 
realities of trying to replace the plastic tube that carries 
toothpaste, to me is a false choice. Fundamentally, we all 
collectively are going to have to adopt strategies that enable 
us to move into a future in which microplastics are not 
polluting our planet and in the communities that we are all so 
lucky to call home. That, to me, is what this hearing should 
collectively be about.
    So, to the extent, Mr. Danson, that you would care to 
respond further, I know you did talk a little bit about some of 
the alternatives to toothpaste containers, and toothpaste 
brushes that are non-plastic options, but if you care to also 
illuminate further, or expound further on that----
    Mr. Danson. Just briefly, I do know that people will invent 
new things, and create more jobs, and not create stuff that is 
worse for the climate.
    But just in general, if you are talking about your 
children, then you are talking about climate change. You just 
are. And you are talking about greenhouse gases. And if you are 
talking about greenhouse gases, and we are in the middle of a 
Committee about ocean plastic, you have to acknowledge that the 
plastic is coming from petroleum and chemicals, and that life 
span, from the time of production to it lying on a beach, is 
the equivalent, all of the plastic, as the fifth-largest 
emitter of greenhouse gases.
    So, if you want to take care of your children, you have to 
start addressing these incredibly inconvenient things that we 
have all gotten used to, and enjoy. But they are no longer good 
for us, and they are going to land on our children and our 
grandchildren in a huge way.
    Mr. Neguse. Thank you. I yield the balance of my time, and 
apologize to Mr. Danson for revealing his age.
    [Laughter.]
    Mr. Neguse. And with that, I yield back.
    Dr. Lowenthal. The gentleman yields back.
    How old are you?
    Mr. Neguse. Thirty-five.
    Dr. Lowenthal. All right.
    [Laughter.]
    Dr. Lowenthal. Thank you. I would like to thank the 
witnesses for their valuable testimony and the Members for 
their questions. I found this very interesting.
    The members of the Committee may wish to have some 
additional questions for the witnesses, and we are going to ask 
you to respond to these in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for their responses.
    Just before I end, I want to introduce into the record a 
journal article from Volume 9 of the journal Nature Climate 
Change of 2019, which was a study that showed that the global 
life cycle greenhouse gas emissions from conventional plastics 
which were produced in 2015 were 1.8 billion metric tons of 
carbon dioxide equivalent. This is approximately the annual 
emissions, as I pointed out in my introduction, of 462 coal-
fired power plants. That is what we are just talking about in 
terms of CO<INF>2</INF> emissions. I want to get that formally 
into the record.
    Mr. McClintock. A point of order, Mr. Chairman.
    Dr. Lowenthal. Yes?
    Mr. McClintock. I am wondering whose time are you speaking 
on? Because we are out of questions. If we are, I am prepared 
to engage----
    Dr. Lowenthal. No, I am just introducing something into the 
record.
    Mr. McClintock. And there is no objection.
    Dr. Lowenthal. Thank you.
    If there is no further business, without objection, this 
Committee stands adjourned.

    [Whereupon, at 3:43 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submission for the Record by Reps. Bishop and Lowenthal
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

Submission for the Record by Rep. Lowenthal
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Submission for the Record by Rep. Lowenthal
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE 
                      
                      COMMITTEE'S OFFICIAL FILES]

Submission for the Record by Rep. Cunningham

  --  Contracted Report to NOAA 2019, The Effects of Marine 
            Debris on Beach Recreation and Regional Economies 
            in Four Coastal Communities: A Regional Pilot Study

                                 [all]
</pre></body></html>
